AUDIT OF THE OFFICE OF JUSTICE PROGRAMS GRANTS 

    AWARDED TO THE BOOKER T. WASHINGTON 

        RESOURCECENTER,MARLIN,TEXAS 


           U.S. Department of Justice 

         Office of the Inspector General 

                  Audit Division 


           Audit Report GR- 60-13-011

                  August 2013




        REDACTED - FOR PUBLIC RELEASE
           AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

                   GRANTS AWARDED TO THE 

           BOOKER T. WASHINGTON RESOURCE CENTER 

                        MARLIN, TEXAS 


                              EXECUTIVE SUMMARY! 


      The U.S. Department of Justice, Office of the Inspector General (OIG),
has completed an audit of three Office of Justice Programs (OJP),
Community Capacity Development Office (CCDO) grants totaling $525,000,
awarded to the Booker T. Washington Resource Center (BTWRC) for a Weed
and Seed program in Marlin, Texas. At the time of our audit, the BTWRC
had drawn $391,841 of the $525,000 awarded. The objective of our audit
was to review performance in the following areas: (1) internal control
environment; (2) grant drawdowns; (3) grant expenditures, including
personnel costs; (4) budget management and control; (5) matching costs;
(6) grant reporting; (7) compliance with grant requirements; (8) monitoring
contractors; (9) accountable property; (10) program performance and
accomplishments; and (11) closeout activity .

       The BTWRC recei ved OJP funding as a new Weed and Seed site in
2006 and received continuation awards in 2007 and 2008. BTWRC
employees stated that the initial grant application was submitted under the
BTWRC's Employer Identification Number by the former Weed and Seed
Steering Committee president without BTWRC knowledge or approval.
Further, BTWRC officials stated that they were misled regarding their role as
fiscal agent of the grants. Nevertheless, in January 2007 OJP confirmed that
the BTWRC was the fiscal agent, and therefore responsible for the awards.
The program terminated in November 2008 when the BTWRC opted out of
the Weed and Seed program by issuing a Cease and Desist Notice to OJP
and the former Steering Committee president. 2

       Upon termination of the program, the former Steering Committee
president removed grant related documentation from th e BTWRC. After
multiple requests, this individual provided the OIG with four boxes of grant
re lated information for review. However, no general ledger was provided ,

        1 The Office of the In spector Genera l redacted portions of Append ices IV and V of
this report because they contain information that may be protected by the Privacy Act of
1974, 5 U.S.c. §552(a) or may implicate the privacy rights of identified individuals.

         2 The Cease and Desist Notice and rel ated corresponden ce are included in Appendix
I V in this report. As a result of this notice, OJP deobligated the rem ai ning fun ds totalin g
$ 133, 159 wh ich had been awarded through Grant No. 200B-WS-QX-0196.
and the majority of the documentation was not organized in a manner that
was meaningful to our work. With the assistance of OJP officials and current
BTWRC employees, we obtained records from local financial institutions at
which grant funds were deposited, which we used as the basis for our audit. 3

       BTWRC employees affirmed to us that they provided accurate
responses to our interviews, but stated that they could not sign a
management repres entation letter because they could not attest to the
reliability of the documentation provided by the former Steering Committee
president. Without current BTWRC management's representation that the
documentation provided was reliable and accurate, we cannot conclude that
the expenditures were supported and allowable. Therefore, we question a
total of $418,436, which includes the total drawn down and the $63,010
unsupported match requirement. 4 Throughout this report we provide
additional details on the following issues:

    • 	 The BTWRC did not apply sufficient internal controls to ensure the
        safeguard and appropriate use of grant funds.

    • 	 The BTWRC expended $169,907 in unsupported payroll costs, $29,794
        in unsupported fringe costs, and $4,592 in unsupported contractor
        costs.

   • 	 The BTWRC expended $86,751 in unallowable direct costs, $51,505 in
       unsupported direct costs, and $12,877 in unsupported unidentified
       questioned costs.

   • 	 The BTWRC reported $63,010 in unsupported costs associated with the
       match requirement for Grant No. 2006-WS-Q6-0204.

       As the BTWRC has no current grants from the DOJ, we do not make
individual recommendations to enhance internal control issues at this time.
It is OJP's responsibility to ensure that grant recipients have adequate
controls in place to manage grant funds . Therefore, in addition to the

        3 Du rin g this audit, we identified certa in issues requiring further investigation. We
made a referral to the OIG's Investigations Division, and put our audit on hold pending
resolution of the referral. Subsequently, we were ab le to complete our audit and issue th is
report.

       4 The total of $418,436 includes a reduction of $37,915 for costs which were 

recovered and returned to OJP as a result of our audit. Additionall y, our questioned costs 

include the BTWRC's 25 percent match contribution, wh ich total s $63,010; the federal 

share of Weed and Seed program s may not exceed 75 percent of the total project costs. 

Finally, the amount includes a $1,500 expenditure which has been questioned as both 

unallowable and unsupported. 



                                                ii
remedy of questioned costs, we also recommend that OJP ensure that the
BTWRC implements appropriate internal controls and procedures to
safeguard future DOJ grant funds in the event that OJP awards future grants
to the BTWRC.

     The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology are in Appendix 1.




                                    iii
                                               Table of Contents

INTRODUCTION .••.•.••...••...•.•.•••...•••.•.•..••.•.•.••.••.•.••..•..•.•.•..••.••.••..•..•...•..•..•..•.•...•••..• 1 

   Background ......................................................................................................... 1 

     The Booker T. Washington Resource Center ............................... .. ......................... 2 

     Background of our Audit ..................................................................................... 2 

  Our Audit Approach ............................................................................................... 4 

FINDINGS AND RECOMMENDATIONS ..................................................................... 6 

   Prior Audits .......................................................................................................... 6 

   Internal Control Environment ................................................................................. 7 

   Drawdowns .... .... ..................................... ... ... ... ... ...... ...... ................... .. ... .. ........... 8 

   Grant Expenditures ................. ..... ........ .. ... .. ............................. .. ...... .. ................. 10 

      Personnel Costs ........... .. ......... .. ............. .. ................ .. ......................................     10   

      Fringe Benefit Costs ............................... .... ... ................ ... ...... ... . ......................      12   

      Contractor Costs .............................................................................................              12   

      Direct Cost Transactions ................................. .. ... ... ..................... .. ...................          13   

   Budget Management and Control ....................................... .. ........................ ... ...... 17 

   Matching Costs ....................................... .. .......................... .. ...... .. ... ... ... ............. 18 

   Grant Reporting .......................................... .. ................ .. ... ................................ 19 

     Financial Reporting .................................. .. .......................................... ............ 19 

     Categorical Assistance Progress Reports ........................... .. ...................... .. ........ 22 

   Compliance with Grant Requirements ....................................................... ............. 23 

   Monitoring of Contractors .................................... .. ... .. ........ .. ... ... ................ .. ........ 24 

   Accountable Property .............................................. .. ........... .. ..... ......... .. ............. 24 

   Program Performance and Accomplishments ........................................................... 25 

  Closeout Activity .................................................................... ............................. 26              

  Conclusion .......................... ........................ ....................................................... 26            

  Recommendations: ................................................................................. ............ 27                   

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGy ..................................... 29                                               

APPENDIX II - SCHEDULE OF DOLLAR- RELATED FINDINGS ................................. 31 

APPENDIX III - QUESTIONED COSTS ................................................................... 32 

APPENDIX IV - OPT OUT, CEASE AND DESIST MEMORANDUM .............................. 34 

APPENDIX V - BOOKER T. WASHINGTON RESOURCE CENTER RESPONSE TO THE 

DRAFT AUDIT REPORT.......................................................................................... 37 

APPENDIX VI - OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE DRAFT AUDIT 

REPORT ................................................................................................................ 46 

APPENDIX VII - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

REPORT ............................................................................................................... 50 

           A UDIT OF THE OFFICE OF J USTICE PROGRAMS 

                    GRANTS AWARDED TO THE 

           BOOKER T. WAS HI NGTON RESO URCE CENTER 

                         MAR LI N, TEXAS 


                                 INTRODUCTION 


      The U.S. Department of Justice, Office of the Inspector Genera l (OIG),
has compl et ed an audit of three Office of Ju stice Programs (OJP),
Community Capacity Development Office (CCDO) grants t ota li ng $ 525,000,
award ed to the Booker T. Washington Resource Center (BTWRC) for a Weed
and Seed program in Marlin, Texas. At the time of our audit, the BTWRC
had drawn $391,841 of the $525,000 awarded .

 EXHIB IT 1 : GRANTS AWARDE D TO TH E BOOKER T. WASHI NGTON
              RESOURCE CENTER
                                           PROJECT START       PROJECT
    AWARD NUMBER         AWARD DATE            DATE           END DATE       AMOUNT
  2006- WS -0 6-0204      08/1 5/2006       10/ 01/2006      09/30/2007     $ 175,000
  2007-WS-Q7-0111         07/ 16/ 2007      10/ 01/2007      03/ 3 1/2009     200000
  200 8-WS-QX- 0196       08/ 25/2008       10/01/2008       09/30/2009       150 000
  Total:                                                                    $525,000
  Source : The Office of Just ice Prog ram s' Grant Manage ment System.

Background

       OJP's stated mission is to provid e leadership to fed eral, state, local,
and tribal justice systems by disseminating state-of-the-art knowledge and
practices across America, and by providing grants for th e implementation of
crime fighting strategies. In support of this mission, the CCDO worked with
local communities to design strategies for det erring crime, promoting
economic growth, and enhancing quality of life. However, the CCDO closed
on June 5, 2011, and active Weed and Seed grants were transferred to OJP's
Bureau of Justice Assistance for management and administration through
the end of the grant award period. All grants in this audit had ended prior to
the date of CCDO's closure .

       CCDO's stated mission was to support communities by enabling them
in the development of solutions to public safety problems, and in
strengthening the leadership to implement and sustain those solutions. The
Weed and Seed initiative was CCDO's flagship strategy. Weed and Seed
claim ed to use an innovative and comprehen sive multiagency approach to
law enforcem ent, crime prevention, and community r evitalization, and noted



                                             1

that it oversaw a network of more than 300 Weed and Seed funded
communities.

       The CCDO viewed the Weed and Seed Program as a strategy that
aimed to prevent, control, and reduce violent crime, drug abuse, and gang
activities in designated high-crime neighborhoods across the country. Weed
and Seed sites varied in size from several neighborhood blocks to several
square miles, with populations ranging from 3,000 to 50,000. The strategy
involved a two-pronged approach: law enforcement agencies and
prosecutors cooperated in "weeding out" violent criminals and drug abusers,
while public agencies and commu nity-based private organizations
collaborated to "seed" much - needed human services, including prevention,
intervention, treatment, and neighborhood restoration programs. A
community-oriented policing component bridged the weeding and seeding
elements.

      At each site, the relevant United States Attorney's Office (USAO)
played a leadership role in organizing local officials, community
representatives, and other key stakeholders to form a steering committee.
The USAO also facilitated coordination of federal, state, and local law
enforcement efforts so that sites effectively use federal law enforcement
partners in weeding strategies. In some instances, the USAO helped sites
mobilize resources from a variety of federal agencies for seeding programs.

The Booker T. Washington Resource Center

      The BTWRC, located in Marlin, Texas, is a 501(c)(3) tax-exempt,
non-profit community organization. The organization's stated mission is to
provide assistance to at-risk youth, families, senior citizens, and the
underprivileged while restoring esteem to the community. According to
BTWRC officials, the organization strives to provide a variety of programs
including recreational activities for youth, after-school tutoring, wellness
classes, job skills assistance, college prep classes, and financial literacy
classes.

Background of our Audit

      The BTWRC received OJP funding as a new Weed and Seed site in
2006, and received continuation awards in both 2007 and 2008 . Current
BTWRC employees claim that they were misled regarding their role as fiscal
agent of the grants, and that the grant application was submitted by th e
former Steering Committee president under the BTWRC's Employer
Identification Number without BTWRC knowledge or approval.



                                      2

      The BTWRC vice president stated that he was concerned regarding
financial responsibility for the grant and that OJP was contacted to
determine which entity had been named fiscal agent of the grant. On
January 25, 2007, OJP confirmed that the BTWRC was the fiscal agent, and
therefore fiscally responsible for the grant.

       In July and August 2008, the vice president submitted a complaint
reporting concerns regarding payroll taxes, payroll advances, and travel
expenditures to both the Department of the Treasury OIG and the DOJ OIG
Investigations Division. The Department of the Treasury, having no
involvement as the awards were not made with Treasury funds, referred the
complaint to the IRS. The DOJ OIG Investigations Division referred the
complaint to OJP in September 2008. During this audit, we identified certain
issues requiring further investigation . We made a referral to the OIG's
Investigations Division, and put our audit on hold pending resolution of the
referral. Subsequently, we were able to complete our audit and issue this
report.

      The program terminated in November 2008 when the BTWRC opted
out of the Weed and Seed program by issuing a Cease and Desist Notice to
OJP and the former Steering Committee president.! This was less than
2 months into the implementation of Grant No. 2008-WS-QX-0196, the third
grant received by the BTWRC. A final drawdown was approved by OJP in
January 2009 to cover "minimal operating expenses required for proper
closeout," bringing the total amount drawn from the three awards to
$391,841. Program funding was then frozen, funds for Grant
No. 2008-WS-QX-0196 were deobligated, and no drawdowns occurred after
January 2009.

      The majority of the work detailed throughout this report was
conducted with the assistance of current BTWRC employees, as the former
Steering Committee president was no longer associated with the BTWRC and
was generally unresponsive to requests for information.




        1 The Cease and Desist Notice and related correspondence are included in Appendix
IV in th is report . As a result of this notice, OJP deobligated the remaining funds t otal ing
$133,159 which had been awarded through Grant No. 200S-WS-QX-0 196.


                                               3

Our Audit Approach

       The purpose of this audit was to determine whether reimbursements
claim ed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the awards, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) grant drawdowns;
(3) grant expenditures, including personnel costs; (4) budget management
and control; (5) matching costs; (6) grant reporting; (7) compliance with
grant requirements; (8) monitoring contractors; (9) accountable property;
(10) program performance and accomplishments; and (11) closeout activity.
We determined that indirect costs and program income were not applicable
to these awards. We tested compliance with what we consider to be the
most important conditions of the grants. Unless otherwise stated in this
report, the criteria we audit against are contained in the OJP Financial Guide
and the award documents.

      To conduct our audit, we examined available bank records, financial
and progress reports, and operating policies. Our audit was limited to the
extent that accounting records and grant information were either unavailable
or organized in a manner that was not meaningful to our work.

      The former Weed and Seed Steering Committee president had
removed grant related documentation from BTWRC headquarters upon
termination of the program and stored it in her personal residence . After
multiple requests, this individual provided the OIG with four boxes of grant
related information for review. However, no listing of grant expenditures
was provided, and the majority of requested documentation was either
unavailable or organized in a manner that was not meaningful to our work.

      We requested that OJP provide ·us with the grantee's bank information.
Using this information, we determined that grant funds had been deposited
into accounts at two different banks in Marlin, Texas. With the assistance of
OJP officials and current BTWRC employees, we obtained records from local
financial institutions at which grant funds were deposited, which we used as
the basis for our audit. We attempted to categorize all expenditures into
appropriate budget categories by examining comments recorded in the
"memo" field of the checks; however, not all transactions were identifiable .

      Our comparison of th e bank records to the drawdowns revealed that
each account conta ined a remaining grant fund balance, as shown in
Exhibit 2.



                                      4

         EXHIBIT 2: 	 FUNDS REMAINING IN BOOKER T.
                      WASHINGTON RESOURCE CENTER
                      ACCOUNTS AFTER THE GRANT PERIODS
                      ENDED
                                                    TOTAL       AMOUNT AVAILABLE
           AWARD NUMBER        TOTAL DRAWN        EXPENDED        FOR RECOVERY
          2006-WS-Q6-0204        $175000          $165895           $ 9105
          2007-WS-Q7-0111         200000           174404            25596
          2008-WS-QX-0196          16841            13626             3215
          Total:                                                    $3791S 2
         Source: OJP's Grant Management System and grantee bank records.

       We coordinated with OJP's Office of the Chief Financia l Officer (OCFO),
and all remain ing funds totaling $37,915 were successfully recovered and
returned to the OJP's OCFO. Based on our review of the documentation that
was provided, we identified deficiencies, or were unable to make a
reasonable determination of achievement in every area we tested, including:
(1) the interna l control environment; (2) grant drawdowns; (3) grant
expenditures, including personnel costs; (4) budget management and
control; (5) matching costs; (6) grant reporting; (7) compliance with grant
requirements; (8) monitoring contractors; (9) accountable property;
(10) program performance and accomplishments; and (11) closeout activity .
As the BTWRC has no current grants from the DOJ, we do not make
individual recommendations to enhance internal control issues at this time.
It is OJP's responsibility to ensure that grant reCipients have adequate
controls in place to manage grant funds. Therefore, in addition to the
remedy of questioned costs detailed throughout this report, we also
recommend that OJP ensure that the BTWRC implements appropriate
internal controls and procedures to safeguard future DOJ grant funds in the
event that OJP awards future grants to the BTWRC.

      The findings and recommendations identified here are detailed in the
Findings and Recommendations section of this report. Our audit objectives,
scope, and methodology appear in Appendix I.




     2   Th roughout this report, differences in the total amounts are due to rounding.


                                             5

                  FINDINGS AND RECOMMENDATIONS

       The BTWRC drew down $39 1,841 of the $525,000 awarded
       under the three grants included in our audit. We identified
       deficiencies, or were unable to make a determination of
       adequate performance, in each area we tested, including:
       (1) the internal control environment; (2) grant drawdowns;
       (3) grant expenditures, including personnel costs; (4) budget
       management and control; (5) matching costs; (6) grant
       reporting; (7) compliance with grant requirements;
       (8) monitoring contractors; (9) accountable property;
       (10) 	 rogram performance and accomplishments; and
             p
       (11) closeout activity. Additionally, current BTWRC employees
       did not sign a Management Representation Letter verifying the
       accuracy of the documentation provided to the OIG for analysis.
       Th ese employees affirmed that they provided accurate responses
       to our interviews, but could not attest to the reliability of
       documentation that had not been in their possession. Without
       management's representation that the documentation provided
       was reliable and accurate, we cannot fully conclude that any
       costs are allowable. Therefore, we questioned a total of
       $418,436, which includes all grant expenditures and an
       additional $63,010 in unsupported match requirem ents .3

Prior Audits

      We analyzed prior reviews of the BTWRC to determine if those reviews
described any findings that could affect grant administration, or our risk
assessment of the BTWRC. We determined that the OJP's OCFO had
conducted a site visit to the BTWRC on January 13, 2009. The subsequent
report contained the following 10 issues and recommendations:

       1. 	   The Center did not maintain accounting, personnel, travel,
              procurement, or grant financial management policies and
              procedures.

       2. 	   The Center did not utilize tim e/activity sheets or certification
              forms for salaried employees.

       3 The total of $418,436 includes a reduction of $37,915 for costs which were
recovered and returned to the OJP's OCFO as a result of our audit. Additionally, our
questioned costs include the BTWRC's 25 percent match contribution for Grant No.
2006-WS-Q6-0204, which totals $63,0 10; the federal share of Weed and Seed programs
may not exceed 75 percent of the total project costs. Finally, the amount includes a $1, 500
expenditure which has been questioned as both unallowable and unsupported.


                                             6

      3. 	   The Center's accounting system was inadequate to record and
             report on Federal grant funds.

      4. 	   The Center maintained excess cash on hand of $25,704.

      5. 	   The Center reported cumulative expenditures on Financial Status
             Reports that did not reconcile to the bank records.

      6. 	   The Center did not track grant expenditures by approved award
             budget categories.

      7. 	   The Center did not provide adequate supporting documentation
             for $44,243 in equipment and contractual expenditures.

      8. 	   The Center did not maintain an inventory control listing for
             equipment purchased with Federal grant funds.

      9. 	   The Center incurred $4,937 in unauthorized expenditures.

      10. 	 The Center could not provide any documentation supporting
            matching funds.

       The former Steering Committee president submitted a response to the
report on April 1, 2009, which addressed recommendations two, three, and
six to the OJP's OCFO's satisfaction; these recommendations were closed.
Recommendation one was partially closed in regard to travel, and personnel
policies and procedures. Additionally, recommendation seven was partially
closed in relation to $20,244 in equipment costs, and recommendation eight
was partially closed in relation to items that were adequately recorded on an
inventory control list. The remaining recommendations remain open.

      We note that this site visit was conducted in January 2009, two
months after the Cease and Desist notice was issued by the BTWRC to the
former Steering Committee president. The site visit report indicated that the
Cease and Desist notice was discussed with the former Steering Committee
president, but no additional information was provided. Our analysis and
recommendations are based on policies and procedures that were in place at
the time the grants were active.

Internal Control Environment

     The OJP Financial Guide requires that all recipients establish and
maintain accounting systems and financial records to accurately account for


                                        7

funds awarded to them. As stated previously, complete grant records were
not provided to the OJP's OCFO during their site visit in 2009, nor were they
provided to the OIG during this audit.

       Using the limited information provided, we tested grantee
recordkeeping, procurement policies and procedures, receiving procedures,
payment procedures, and the payroll system, and identifi ed deficiencies in
all areas. Specifically, adequate policies and procedures were not in place to
effectively control and account for federal funds, resulting in the approval
and payment of a significant number of unsupported and unallowable
transactions. These are detailed throughout this report.

       Since the BTWRC has no current grants from the DOJ, we do not make
individual recommendations to enhance internal control issues at this time.
However, if OJP awards any future grant funds to the BTWRC, we
recommend that OJP ensure that the BTWRC implements appropriate
internal controls and procedures to safeguard those funds. Specifically,
policies and procedures should be developed to include clear, detailed, and
comprehensive directions describing all activities needed to ensure adequate
control of Federal funds, including effective grant administration. These
poliCies and procedures should also include adequate internal controls to
ensure accountability and oversight. Additionally, these policies and
procedures should be consistent with the requirements of the Office of
Management and Budget (OM B) Circulars A-122, Cost Principles for Non­
Profit Organizations; A-ll0, Uniform Administrative Requirements for Grants
and Agreements with institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations; and the OJP Financial Guide.

Drawdowns

      To meet minimum cash on hand reqUirements, the OJP Financial Guide
requires that recipients time their drawdown requests to ensure that Federal
cash on hand is the minimum needed for disbursements or reimbursements
to be made immediately or within 10 days. To determine if drawdowns were
supported, we compared the drawdown requests to the bank record s for
each grant. We also compared the total expend itures per the bank records
for each grant with the total drawdowns for the grant, as shown in Exhibit 3.




                                      8

         lIT 3 :    A N A I .T~     OF DD" "fDullvnS
 D RAW DOWN   DR AWDOWN     D RAW DOWN       FO R THAT                       CUMULATIVE       CUMUL ATIVE         CUMU LATIVE
                                                                                                              4
  NUMBER           DATE       AMOUNT         p e RIOD         DIFF EREN CE   D RAW DOWNS     EXP ENDITURES        DIFFER ENCE


Grant No .
     1        12/01/06       $ 11 ,200   $       ($90)'       $(11 , 290)    $    11 ,200     $      (90)         $     ( 11 ,290)
     2         L/03, )7        50.000           8 .22:         (4 	 .778:         61 .20C           8.13:               (53~
     3        04, 16, )7       70.000          L2,00C                            L31,20C           20.132             [: L l.
     4        09/11/07         43,800                            58,230                           122,162               (5:'.838'
Grant No.                  ll!
               L2/20/07      $ 40.000    $       Ll0)"                       $    40.000      $        Ll0        $    (40.1
     2                         30,000         37,112'             7,112           70, 000          37,003              (32,997)
     3         12, .3/08       58.00e           1.905'                           .28.000           56.907              :7: ..093:
     4         17, 16/08       55.10 5        53.731              .374           183. 10 5        1 1 .638             (72.467:
     5                         16,895         58,985             42,090                           16' 1.623            (30,377)
Grant No.
              01/26/09     I $ 16.841    $       r18) 	                      $    16.84 1     $        L8)        $    (16.8581
Source : OJP's Gra nt Management System and grant ee bank record s.

       As shown above, we found that drawdowns were consistently in 

violation of the OJP Financial Guide 's Minimum Cash on Hand reqUirement, 

and a cumulative balance remained in the grantee's bank accounts during 

the award periods. 


       Since the BTWRC has no current grants from the DOJ, we do not make
individual recommendations to enhance internal control issues at this time.
However, if OJP awards any future grant funds to the BTWRC, we
recommend that OJP ensure that the BTWRC implements appropriate
internal controls and procedures to safeguard those funds .



        4 We also identified expenditures that took place after th e fin al drawdown dat e.
Specif icall y, we identifi ed $72,481 in expe nd itures fo r Grant No. 2006-WS-Q6- 0204, $4,78 1
in expenditures for Grant No. 20 07-WS-Q7-0111, and $13 ,643 in expenditu res for Grant
No. 2008- WS-QX-01 96 th at took place after the final d ra wdow n date. These ex penditures
were fun ded in pa rt with th e unallowab le t ransfers between awards, which we describ e in
t he Budg et Management and Control section of this report.
      S Negative figures th roughout the t able indica t e a ti m e period in which deposits
exceeded expenditures. These were influenced in part by opening deposits and t ransfers
between account s.
       6 Thi s amount includes a $200 fund tran sfer from Grant No. 2006- W5 -Q6-0204 to
Grant No. 2007-W5-Q7- 0111. All unallowa ble budget t ransfers discl osed in footnotes six
th rough eig ht are discussed in t he Budget Management and Control sect ion of t hi s report.
       7 This am ount incl udes $28 ,747 in fund transfers from Grant No. 200 7-W5-Q7-0111
to Grant No. 2006-WS- Q6-0204 . The transfe rs occurred on December 31 , 2007 and
January 17, 2008.
       8 This amount includes a $1,000 fun d tran sfer fro m Grant No. 2006 -WS-Q6 -0204 t o
Grant No. 200 7- WS-Q7- 0111 on January 31, 2008.



                                                         9

Grant Expenditures

      Generally, we conduct sample testing in severa l area s of grant
ex penditures, including payroll and fringe benefits, direct cost transactions,
and contractor costs. Since comp lete grant records were not provided to us,
we were unable to conduct such te sting . We used the limited information
provided to review grant expend itu res.

Personnel Costs

      To verify the reasonableness , accuracy, and completeness of salary
and fringe benefit transactions charged to the grants, we requested payroll
information, including time sheets, for all employees paid using grant funds.
The OJP Financial Guide requires that the BTWRC maintain a financial
management system that can accurately and reliably account for funds
spent. However, complete records were not provided to the OJP's OCFO
during their site visit or to the OIG during our audit. We used the limited
information provided to review personnel costs.

       Our review of the available documentation indicated that $63,S66
(60 percent) of personnel costs for Grant No. 2006 -W S-Q6-0204 were not
supported, or were approved by BTWRC supervisors despite Significant
ina ccuracies; $61,640 (77 percent) of personnel costs for Grant
No. 2007-W5-Q7-0111 were not supported, or were approved by BTWRC
supervisors despite Significant inaccuracies; and, $12,075 (100 percent) of
personnel costs for Grant No. 200S-WS-QX-0 196 were not supported.

      The issues we identified related to personnel costs charged to th e
grants include, but are not limited to:

   • 	 Instances in which the total hours paid were higher than the recorded
       total hours worked.

  • 	 Instances in which unallowable payroll advances were made, including
      an instance in which a payroll advance was requested and approved
      despite the fact that: (1) payroll advances are unallowable, and
      (2) th e request includes documentation indicating that a previou s
      payroll advance remained outstanding.

  • 	 Instances in which time sheets appear to have been altered after 

      original submission to increase the hours worked, despite written 

      activity reports that indicated far fewer hours had actually been 

      worked. 




                                      10
   • 	 A timesheet submitted with no hours recorded; rather, the employee
       wrote a lump sum dollar amount at the bottom of the time sheet.
       Despite this fact, the time sheet was approved and paid.

       In an attempt to identify a reason for the inconsistencies, we
contacted the former Site Coordinator, who approved many of the time
sheets. The former Site Coordinator was unable to offer a reason as to why
inconsistent, altered, or unsupported time sheets were approved for
payment. We also found that salaried employees did not fill out time sheets,
a finding that was included in the OJP's OCFO's report. The OlP Financial
Guide requires time and attendance reports for all individuals reimbursed
under the award, whether they are employed full time or part time. The
material number of inaccurate and unsupported payroll records that were
approved by supervisors, combined with the fact that supervisors could not
offer an explanation for their actions, resulted in our inability to reasonably
determine the accuracy or allowability of payroll transactions.

      Our review of Steering Committee meeting minutes identified
additional unallowable payroll activity. Specifically, we identified an instance
on October 11, 2007, in which the former president adjourned a Steering
Committee meeting only to reconvene after some members had left. Of
those who remained, the former president requested that 25 percent of the
Site Coordinator's salary be reduced and added to the president's salary.
We reviewed the bank records and confirmed a decrease in the Site
Coordinator's salary and an increase in the former Steering Committee
president's salary in October 2007. Specifically, monthly payments to the
Site Coordinator were lowered from $2,418 per month to $1,782 per month,
a decrease of approximately 26 percent. At the same time, monthly
payments to the president were increased from $489 to $2,886, an increase
of 491 percent. An increase of this size additionally violates the terms of the
2007 continuation award, as two Site Coordinator salaries were essentially
being paid for a single site.

      In January 2009, approximately 15 months after the salary changes
described above had been instituted, the former president submitted a
request to OJP for retroactive approval of the salary revisions. This request
was deemed unallowable by OJP because it violated the Steering
Committee's policy requiring all Steering Committee members to be given
the opportunity to vote on actions.

      As previously stated, the OlP Financial Guide requires that grantees
maintain a financial management system that can accurately and reliably
account for funds spent; additionally, the guide requires time and
attendance reports for all individuals reimbursed under the award, whether


                                      11 

they are employed full time or part time. The deficiencies outlined above,
including the high rates of inaccurate and unsupported personnel costs that
were approved by supervisors, and the inability of supervisors to offer an
explanation for the deficiencies, resulted in our inability to make a
reasonable determination that payroll costs were allowable and supported.
As a result, we question the full amount of personnel costs paid under the
grants tota ling $169,907 as unsupported, and we recommend that OJP
coordinate with the BTWRC to remedy these costs. The unsupported payroll
costs for each grant are detailed in Exhibit 4 .

             EXHIBIT 4', UNSUPPORTED COSTS - PAYROLL
                        AWARD NUMBER          AMOUNT QUESTIONED
              2006-WS-06-0204                    $     88826
              2007-WS-Q7-0111                          69006
              2008-WS-QX -0196                         12075
              Total:                             $    169907
             Source: OJP's Grant Management System and grantee
             bank records.

Fringe Benefit Costs

      Although some fringe benefit costs appeared to have been charged to
the grants, we could not verify the accuracy or allowability of these costs.
As a result, we question the full amount of fringe benefit costs charged to
the awards totaling $29,794 as unsupported, and we recommend that OJP
coordinate with the BTWRC to remedy these costs. The unsupported fringe
costs for each grant are detailed in Exhibit 5.

                       ,
              EXHIBIT 5' UNSUPPORTED COSTS - FRINGE
                         AWARD NUMBER        AMOUNT OUESTIONED
               2006-WS-Q6-0204                   $ 17 061
               2007-WS-Q7 -0111                      12733
               2008-WS-OX-0196                           -
               Total:                           $ 29 794
              Source: OJP's Grant Management System and grantee
              bank records.

Contractor Costs

      In each award application, the BTWRC included a budget narrative for
OJP approval that identified the contractors to be paid using grant funds.
For Grant No. 2006-W5-Q6-0204, a total of $6,540 was approved to cover
internet and tutoring costs. We could not identify any payments made for
these purposes.




                                        12
      For Grant No. 2007-WS-Q7-0111, a total of $49,406 was approved for
costs related to tutoring, consulting, hotels, cell phones, internet service,
copy machine rental, and van rental. Only $3,426 in payments for copy
machine rental, internet service, and cel l phones were identifiable in the
bank records. We were not able to verify that the costs were appropriately
shared or associated with work relevant to the grant.

       Finally, for Grant No. 2008-WS-QX-0196 a total of $5,837 was
approved for costs related to cell phones, copy machine rental, and internet
services. In the award documentation, an additional $50,000 for tutoring
costs, District Attorney's activities, and job training were reclassified from
the "Other" category to "Contracts". Though this grant ended prematurely,
we were on ly able to identify payments of $1,166 for copy machine rental.
Again, we were not able to verify that the costs were shared appropriately or
associated with work relevant to the grant.

      As a result of our inability to reasonably identify these transactions, we
question $4,592 in contractor costs as unsupported costs, and we
recommend that OJP coordinate with the BTWRC to remedy these costs.
The unsupported contractor costs for each grant are detailed in Exhibit 6.

            EXHIBIT 6" UNSUPPORTED COSTS - CONTRACTORS
                      "
                      AWARD NUMBER             AMOUNT QUESTIONED
              2007 -WS-07-0111                    $ 3426
              2008- WS-QX -0196                      1166
             Total:                               $ 4,592
            Source: OJP's Grant Manag em ent System and grantee bank
            records.

Direct Cost Transactions

      We examined the records provided to determine the accuracy and
allowability of all direct cost transactions, including travel costs, eqU ipment
costs, supply costs, and other costs as detailed below.

      Travel Costs

       We identified $15,041 in travel costs that had been spent over the
course of the award periods. Of this amount, $12,044 was associated with
Grant No . 2006-WS-Q6-0204 . We determined that $11,777, or 98% of the
total amount, we re large payments made to the former Steering Committee
president directly rather than to individual travelers. A total of $8,673
of those large payments were made over a 2-week period from October to
November 2007. We were not provided with adequate documentation to



                                        13 

support these or any other travel expenditures for Grant No.
2006-WS-Q6-0204, and question the entire amount, $12,044, as
unsupported.

      For Grant No. 2007-WS-Q7-0111 we identified $2,997 in travel
costs. We were provided with limited supporting documentation for these
costs, but without management's representation that the documentation
provided is reliable, we cannot make a determination that the costs are
allowable. Therefore, we question the $2,997 as unsupported. We identified
no travel costs associated with Grant No. 2008-WS-QX-0196.

      Equipment Costs

      For Grant No. 2006-WS-Q6-0204, we identified a total of $60,500 in
equipment costs. Of this amount, $59,000 was for the purchase of a
surveillance camera, which was not in the approved budget. Our review of
the Steering Committee minutes revealed ongoing confusion regarding the
camera, which was revealed to be a prototype. Once delivered, members of
the Marlin Police Department noted that the camera was not readily
available to the police force as it was so large a van was required to conceal
it. One officer noted that he was able to use the camera, as he personally
owned a Suburban. However, it is reasonable to conclude that a camera
purchased for the police department would be usable, at the time of
delivery, by other members of the police force.

      The OJP Financial Guide notes that careful screening should take place
before acquiring property in order to ensure that it is needed, and
encourages the use of procedures to establish levels of review for eqUipment
purchases, dependent on factors such as the cost of the proposed equipment
and the size of the recipient or subrecipient organization. As noted above,
our review of the Steering Committee minutes indicated that an appropriate
review did not take place, and the product ultimately delivered was of
limited use. This, combined with the fact that the $59,000 surveillance
camera was not in the approved budget, resulted in our decision to question
the camera purchase as unallowable.

      The remaining $1,500 eqUipment purchase for Grant
No. 2006-WS-Q6-0204 funded eqUipment for the youth football league.
Though sporting equipment was identified in the budget, it was included as a
match contribution. Specifically, the BTWRC was approved to provide
sporting equipment for youth activities as part of the BTWRC's fulfillment of
the 25 percent match requirement required by the Weed and Seed program.
O]P did not approve the purchase of sporting eqUipment using DO] grant
funds. Though limited supporting documentation was provided for the


                                     14 

unallowabl e equipment purchases described previously, no such
documentation was provided for the $ 1,500 youth football leag ue purchase.
For this reason, we question the $ 1,500 as both unallowable and
unsupported.

       For Grant No. 2007-WS-Q7-0111, we identified a total of $55,049 in
equipment costs. Of this amount, we were provided with documentation for
$22,864 which had been spent on hand held radios and video flashlight
equipment. However, without management's representation that the
documentation provided is reliable, we cannot make a determination that
the costs are allowable. We also identified $6,200 in funds to support the
Police Athletic League; however, we were not provided with documentation
to support this transaction . We question a total of $29,064 in equipment
costs as unsupported.

       We also identified equipment expenditures totaling $10,593 for
ThermoVision video cameras and $15,392 for Watch Guard cameras which
were not appropriately budgeted. Additionally, OJP had previously
determined that the replacement of cameras should have been a part of the
city's general budget, and therefore was not an allowable grant expenditure.
We question these amounts, totaling $25,985, as unallowable.

      Supply Costs

       We were provided with supporting documentation for $1,894 in supply
costs charged to Grant No. 2006-WS-Q6-0 204 and an additional
$38 charged to Grant No. 2007-WS-Q7-0111. However, without
management's representation that the documentation provided is reliable,
we cannot make a determination that the costs are allowable . We also
identified $739 in supply costs charged to Grant No. 2006-WS-Q6-0204 and
$208 charged to Grant No. 2007-WS-Q7-0111 for wh ich no documentation
was provided. We question the total amounts of $2,634 charged to Grant
No. 2006-WS-Q6-0204 and $246 charged to Grant No. 2007-WS-Q7-0111
as unsupported.

      Other Costs

       For Grant No . 2006-WS-Q6-0204 we identified expenditures
totaling $3,020 for the lease of a copy machine and for a confidential funds
purchase that had been budgeted in the "Other" category. 9 We were not
provided with appropriate documentation for the confidential funds costs,


       9 For Grant No. 2006-WS-Q6-0204, the BTWRC had budg eted the copy mach ine
under "Other". In subsequent awards, it was budgeted under "Contracts."


                                         15
and we were not able to verify that the copier costs were appropriately
shared or associated with work relevant to the grants. Therefore, we
question the total of $3,020 as unsupported.

      Summary of Direct Cost Analysis

      Based on the information previously discussed, we identified $51,505
in unsupported direct costs, and we recommend that OJP coordinate with the
BTWRC to remedy these costs. The unsupported direct costs we identified
for each grant are totaled in Exhibit 7.

            EXHIBIT 7" UNSUPPORTED DIRECT COSTS
                      "
                       AWARD NUMBER           AMOUNT~UESTIONED
             2006-WS-Q6-0204
             Travel                                 $   12044
             Equioment                                   1500
             Suppli es                                   2634
             Other                                       3020
             2007-WS- Q7-0111
             Travel                                      2,997
             Equipment                                  29064
             Suoplies                                      24 6
             Other                                        -
             2008-WS-QX-0196
             Travel                                       -
             Equiom ent                                   -
             Supplies                                     -
             Other:                                       -
             Total:                                $ 51505
            Source: OJP's Grant Management System and grantee bank
            records.

        In addition to the unallowable direct costs described in the Equipment
Costs section of this report, we identified $266 in bank fees, including
service charges and insufficient fund penalties that were charged to the
grants. These costs were not approved by OJP, and are unallowable under
the terms and conditions of the 2008 OJP Financial Guide. We recommend
that OJP coordinate with the BTWRC to remedy the $86,751 in unallowable
direct costs, and we summarize these charges and the unallowable direct
costs previously discussed in Exhibit 8.




                                      16 

            EXHIBIT S' UNA LLOWABL E DIRECT COS TS 

                       AWARD NUMBER            AMOUNT OUESTIONED
             2006­ WS-06-0204
             Equipment                              $ 60500
             Bank Fees                                    155
             2007-WS-Q7-0111
             Equipment                                 25985
             Bank Fees                                    31
             2008-WS-QX-0196
             Equipment                                   -
             Bank Fees                                       80
             Total:                                 $ 86 751
            Source : OJP's Grant Management System and grantee bank
            records .

       Finally, we found an additional $12,877 in expenditures that were not
identifiable through the bank records we obtained, and did not have
corresponding records of payment. As a result, we question the $12,877 as
unsupported, and we recommend that OJP coordinate with the BTWRC to
remedy these costs.

            EXHIBIT 9: UNSUPPORTED UNIDENTIFIED QUESTIONED
            COSTS
                     AWARD NUMBER              AMOUNT OUESTIONED
             2006-WS-Q6­ 0204                        $ 9 203
             2007-WS-07­ 0111                          3370
             2008-WS-OX-0196                             304
             Total:                                $ 12,877
                       ,
            Source: OJP s Grant Management System and grantee bank
            records.

Budget Management and Control

      According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the total award amount. As previously
noted, we were not provided with accounting records that identified
expenditures by budget category. Although we were able to reasonably
separate certain expenditures based on our review of the checks, we were
not able to identify all expenditures .

       We identified several instances in which funds were transferred
between Grant Nos. 2006-WS-Q6-0204 and 2007-WS-Q7-0111.
Specifically, the BTWRC made two transfers totaling $1,200 from Grant No.
2006-WS-Q6-0204 to Grant No. 2007-WS-Q7-0111, and two transfers
totaling $28,747 from Grant No. 2007-WS-Q7-0111 to Grant No.


                                      17
2006-WS-Q6-0204, resulting in a net total of $27,547 having been moved
from the 2007 account to the 2006 account. This is in violation of the terms
and conditions under which the grantee accepted the award; specifical ly, the
Special Conditions in both Grant Nos. 2006-WS-Q6-0204 and
2007-WS-Q7-0111 state that the awards have a limited obligation and
payment period, and are not eligible to be supplemented with funds from
other fiscal years.

       Since the BTWRC has no current grants from the DOJ, we do not make
individual recommendations to enhance internal control issues at this time .
However, if OJP awards any future grant funds to the BTWRC, we
recommend that OJP ensure that the BTWRC implements appropriate
internal controls and procedures to safeguard those funds.

Matching Costs

       The federal share of Weed and Seed programs may not exceed 75
percent of the total project cost. A minimum of 25 percent of the total
project cost is required as a match contribution and must come from state,
local, or private sources. We reviewed the budget documentation for each
grant in this audit to determine the amount of non-federal match required .
We found that Grant No. 2006-WS-Q6-0204 required $63,010 in matching
funds, Grant No. 2007-WS- Q7-0111 required $66,687 in matching funds,
and Grant No. 2008-WS-QX-0196 required $50,000 in matching funds. The
OlP Financial Guide requires that the matching contribution be obligated by
the end of the period for which the federal funds have been made available
for obligation under an approved program or project, but notes that
matching contributions need not be applied at the exact time or in
proportion to the obligation of the federal funds.

      Due to the Cease and Desist order issued by the BTWRC, the Marlin
Weed and Seed Program was prematurely ended, and Grant No.
2007-WS-Q7-0111 and 2008-WS-QX-0196 were effectively closed prior to
reaching their official end-date. Since the OlP Financial Guide allows until
the end of the project period to meet match obligations, we do not question
the match amounts for these two awards, but note that none of the required
match amounts were achieved.

      For Grant No. 2006-WS-Q6-0204, we question the total amount of
$63,010 as unsupported since the grant did reach its end date and we were
provided with no reliable documentation to indicate that the match
requirement had been met. The final Financial Status Report for this award
was submitted on November 26, 2007, indicating that the required
contribution amount had been exceeded, and a total of $84,257 was


                                     18 

reported as mat ch. However, we question only th e $63,010 that was
appro ve d in the Fin al Review, and therefore subject to audit. We
recomm end that OJP coordin at e with th e BTWRC to remedy th e $63,010 in
unsupported cost s ass ociated with th e match requirement for Grant
No . 2006- WS - Q6-0 204.

Grant Reporting

      We revi ewed the financial reports and progre ss reports required for all
three award s. We found that neith er fin ancial reports nor progress reports
were con sistently submitted accurately, or in a timely manner.

Financial Reporting

       According to the OJP Financial Guide, th e BTWRC is required to submit
quarterly financial reports for the life of all awards. Prior to October 1,
2009, th e OJP Financial Guide required the reports, referred to at that tim e
as Financial Status Reports (FSR), be submitted within 45 days after th e end
of each calendar quarter, or within 90 days after the end of the grant period
for a final report.

      We analyzed the FSRs for all grants awarded to t he BTWRC, and the
results of our analysis are shown in Ex hibit 10.

                        .
     EXHIBIT 10' FINANCIAL STATUS REPORT TIMELINES S
       FSR NUMBER   I        REPORTING P ERIOD        I   D UE DATE   I   SU BMISSION DATE   I   DAYS LATE
     Grant No . 2006-WS-06-0204
           1              10/01 06   ­   12 3 1 06        02/1 4/07          11/27/06                0
           2              01/01/07   -   03/3 1/07        05/15/07         Not Subm itted          N/A
           3              04L9ll07   -   06/30L07         08/14/07           07/31L07                0
           4              07 01 07   -   09/30 07         12/29/07           11126/07                0
     Grant No . 2007-WS- Q7- 0111
           1              10 Oll07   -   12/31/.07        02/14/ 08          02/ 13L08               0
           2              01 01 08   -   03/3 1/08        05115/08           05/ 14/08               0
           3              04 01/08   -   06/30/08         08 14 08           08/0808                 0
           4              07/01/08   -   09/30/08         11/ 14/08          12/05/08               21 10
           5              10 01 08   -   12/3 1/08        02 14 09         Not Su bm itted         N/A
           6              01/01/09   -   03/31/09         06 29 09         Not Subm itted          N/A
     Grant No. 2008-WS-QX-0196
           1         I    10/01/08   - 12/31/08      I 03 31 09 I            05/ 15/09       I      45
    Source: OJ P's Grant Ma nagement System and the OJP Financial GUide.

     As shown above, we identified three reports that have not been
submitted by the BTWRC. For Grant No. 2006-WS - Q6-0204, we found that

        10 A proj ect peri od extension was app roved on October 6, 2008. Due to thi s
ext ension, FSR No. 4 was no longer the fin al FSR for thi s award, and th e du e dat e would
have been Novem ber 14, 2008 . We determ ined t ha t the change was made early enou gh
d uring t he reporti ng peri od to allow adequ ate t ime to file FSR No.4 In a t imely ma nner, and
consider it 21 days late .


                                                     19 

FSR No.3 covered a 6-month period, from January through June 2007; FSR
No.2 was not submitted, as FSR No.3 covered the time period for both
required reports . FSR No.3 was accepted by OJP despite the fact that it is
not in compliance with the OJP Financial Guide, which requires that FSRs be
submitted every calendar quarter.

       Additionally, the BTWRC was granted an extension for Grant No .
2007-WS-Q7-0111, which changed the end date from September 30,2008
to March 31, 2009. The BTWRC ind icated that FSR No.4, which covered
activity up to the original project end date, was the final report, t hough we
identified account activity as late as March 10, 2009. We also noted that the
final FSR for Grant No. 2008-WS-QX-0196 was submitted 45 days late.

       Since the BTWRC has no current grants from the DOJ, we do not make
individual recommendations to enhance internal contro l issues at this time.
However, if OJP awards any future grant funds to the BTWRC, we
recommend that OJP ensure that the BTWRC implements appropriate
internal controls and procedures to safeguard those funds.

      We also evaluated all FSRs for accuracy . The OJP Financial Guide
requires that each FSR include the actual expenditures and unliquidated
obligations for that reporting period (calendar quarter) and cumulative for
the award. We determined that the FSRs submitted did not reconcile to the
bank records during any single reporting period. Additionally, we identified
remaining balances in all three grants, as shown in Exhibit 11.




                                     20 

                    .
 EXHIBIT 11' FINANCIAL STATUS REPORT ACCURACY                                                                        ­   CUMULATIV E
                                                            E XPENDITURES                            CUMULATIVE      E X PENDITURES
   FSR                                 EX PENDITU RES          peR B A N K                           E XPENDITURES        PER BANK          CUMULATIVE
                                                                                                                                   ll
 NUMBER      REPORT PERIOD                PER   FSR              ReCORDS         DIFFERENCE            PER   FSR         ReCORDs            DIFFERENCE
Grant No. 2006­ WS­ 6-0204
    1       10/01-06 ­ 12/31/06                 -            $ 5714               $     5714                 -            $   5714           $ 5714
    2       OILOl107 - 03 3 1 07                -            114418               $ 14 418                   -            $_ 20 132          $ 20 132
   3        04/01/07 - 06 30 07          $ 59571"            $ 42 305             $ (17266)            $ 59 571           $ 62 437           $   2866
   4        07/01/07 - 09/30/07          $ 115429            $ 74 102             $ (4 1 326)          $175000            $ 136 539          $(38461)
Grant No. 2007-WS-Q7-0111
   1        10/0 1/07 - 12/31/07         $ 40 000            $ 4900               $ 35 100)            $ 40 000           $  4900            $135 100)
   2        01/01/08 . 03/3 1/08                -            $ 81 492             $ 81 492             $ 40 000           $ 86392            $ 46 392
   3        04/ 01j08 - 06L30/08         $ 88 000            $ 23 586             $ (64 4 14 )         $ 128 000          $ 109978           $(18022)
   4        07/ 01 08 - 09/30/08         $ 46 296            $ 60 022             $ 13 726             $ 174 296          $ 170000           $ (4 296)
Grant No . 2008 -WS-QX-0196
   1      1 10/01/08 - 12/31/08    I     $ 16 84 1      I    $      52       I    $ (16788)      I     $ 1684 1      I $        52      I    $ (16 788)
Source : OJP's Grant Manage ment System and th e OlP FmanCial GUIde .

           Act ivity on Grant No. 2006-WS-Q6-0204 continued after the final
     reporting date of September 30, 2007, and included an additional $58,104 in
     grant related transactions. The additiona l transactions were funded in part
     by the $28,747 in unallowable transfers from Grant No . 2007-WS- Q7-0111
     described in the Budget Management and Control section of th is report . We
     found that the $20,252 in spending not fund ed by transfers was drawn down
     from the 2006 award. Ex penditures included, but were not limited to,
     salary, fringe, and trave l paym ents . At the time of our audit, a balance of
     $9,105 remained in the account.

           For Grant No. 2007-WS-Q7-0111, the final FSR submitted by the
     BTWRC reported that $174,296 had been expended. This FSR was
     submitted on December 5, 2008; however, the fu ll award amount of
     $200,000 had been drawn by September 3,2008. At the time of our audit,
     a balance of $25,596 rema ined in th e account. Finally, for Grant
     No. 2008-WS-QX-0196, a lump-sum amount of $16,841 was drawn in
     January 2009 to cover final costs. Of th is amount, only $13,626 was
     expended, leaving a remaining balance of $3 ,215 in the account . The OIG
     coordinated with the OJP's OCFO to remedy these balances, and at the time
     of our audit all rema ining funds have been recovered . We expand on this in
     the Closeout Activity section of this report .


            11 The BTWRC continued to expend fund s after the subm ission of th eir fina l FSR.
     The figures noted here indicate the amount wh ich had been spent at th e time the fin al FSR
     was submitted.

             12 Thi s FSR rep orted expenditures from January 1, 2007, through Jun e 30,2007.
     Since individual reports were not subm itted for each quarter as requi red, we ca nnot
     differentiate between funds spent in the first and second quarter of 2007. Exhibit 11
     includ es all expenditures reported for thi s tim e peri od on the report covering Apri l 1, 2007,
     through June 30 , 2007.


                                                                         21 

       As reported above, the FSRs submitted did not reconcile to the bank
records during any reporting period. Since the BTWRC has no current grants
from the DOJ, we do not make individual recommendations to enhance
internal control issues at this time . However, if OJP awards any future grant
funds to the BTWRC, we recommend that OJP ensure that the BTWRC
implements appropriate internal co ntrols and procedures to safeguard those
funds.

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, semi-annual progres s reports are
due on January 30 and July 30 for the life of the grants, with a 90 day
allowance for the final report. We analyzed the progress reports for all
grants in our audit, and determined that reports were not conSistently
submitted in a timely manner. Specifically, five of the seven required
reports were submitted late. The final progress report for Grant No.
2006-WS-Q6-0204 was submitted late, and was incomplete; therefore, OJP
requested changes requiring resubmission. The required resubmission had
not taken place at the time of our analysis in 2011.

                  ,
        EXHIBIT 12' PROGRESS REPORT TIMELINESS
         PROGRESS                                                         REPORT 

          REPORT 
                                                      SUBMISSION 

          NUMBER 
      REPORT PERIOD            REPORT DUE DATE           DATE              DAYS LATE
        Grant No. 2006-WS-06-0204
            1         10/01- 06 12/31/06            01/30 07             01/31/07                1
            2         01/01/07 - 06/30/07           07/3 0/0 7           08/02/07                3
            3         07/0 1/07 - 09/30/07          12 29 07           Not Subm itted       Not Submitted
        Grant No . 2007-WS-07-0111
            1         10/01/07 - 12/31/07           0 1/30/08            11/06/08               28 1
            2         01/01 08 - 06/30/08           07/30/08             08/06/ 08               7
            3         07 01 08 12/31/08             03 31 09             12/05 08                0
        Grant No. 2008-WS-QX- 0196
            1       I 10/01/08 - 12/3 1/08   I      01/30/09       I     12/05/08       I        0
        Source: OJP's Grant Mana gement System and the OJP Finan Cia l GUide.

       Since the BTWRC has no current grants from the DOJ, we do not make
individual recommendations to enhance internal control issues at this time.
However, if OJP awards any future grant funds to the BTWRC, we
recommend that OJP ensure that the BTWRC implements appropriate
internal controls and procedures to safeguard those funds.

      We also analyzed the semi-annual progress reports for accuracy. We
determined that the progress reports generally did not contain information
that adequately articulated progress made towards the goals and objectives
of the awards. For example, the final progress report for Grant No.
2006-WS-Q6-0204 contained only the following information:


                                                    22
            The Marlin Weed had a successful first year of funding.
            Although we had a few "bumps and bruises" with some
            of our colla borators, we have been able to continuously
            gain community support regarding our program.         We
            look for ward to our next year's funding. The Special
            Emphasis-Police Athletic League is of particular interest
            to our children for the summer.

       We do not consider this to be a reasonable representation of
ach ievement for a $175,000 award, and, as noted above, the progress
report was not accepted by OJP due to the limited information provided.

      Finally, we were not provided with statistica l evidence to support the
general claim s of progress. Therefore, we cannot make a determination as
to whether progress reports were accurate. Since the BTWRC has no current
grants from the DOJ, we do not make individual recommendations to
enhance internal control issues at this time . However, if OJP awards any
future grant funds to the BTWRC, we recommend that OJP ensure that the
BTWRC implements appropriate internal controls and procedures to
safeguard those funds.

Compliance with Grant Requirements

       We reviewed the award documentation for all grants in our audit to
determine if there were additional requirements to which the BTWRC must
adhere. We also reviewed the awarding agency solicitation s, award
documentation, and conducted interviews with grantee officials to determine
if the BTWRC is meeting the reqUirements and objectives of each grant
program. We found that the BTWRC was not in compl iance w ith grant
requirements in numerous areas, and have separated them by award year
below .

     Special Conditions included in the documentation for all awards, but
not met by th e BTWRC;

  • 	 The BTWRC did not submit Government Performance and Results Act
      reports for each calendar year.

     Special Conditions included in the documentation for the 2006 and
2007 awards, but not met by the BTWRC;

  • 	 The BTWRC supp lemented funds for Grant No. 2006-WS-Q6-0204 with
      funds from Grant No . 2007-WS-Q7-0111 (reported in the Budget
      Management and Control section of this report).


                                          23 

      Special Conditions included in Grant No. 2006-WS-Q6-0204:

   • 	 The BTWRC did not submit a copy of approved Weed and Seed Policies
       and Procedures within 90 days of award acceptance.

      Special Conditions specific to Grant No. 2007-WS-Q7-0111:

   • 	 The BTWRC did not submit documentation verifying that the program
       had come into compl iance with all new statutory requirements for
       Weed and Seed programs within 90 days of accepting the award.

   • 	 The BTWRC did not maintain documentation indicating that contracts
       made under the awards had been competitively awarded .

       Since the BTWRC has no current grants from the DOJ, we do not make
individual recommendations to enhance internal contro l issues at this time.
However, if OJP awards any future grant funds to the BTWRC, we
recommend that OJP ensure that the BTWRC implements appropriate
internal controls and procedures to safeguard those funds.

Monitoring of Contractors

       We were not provided with documentation supporting a system by
wh ich the BTWRC monitored its contractors. Additionally, as noted in the
Contractors section of this report, it did not appear that any payments had
been made to the majority of contractors that were in the OJP approved
budgets. With the information we were provided, we cannot make a
reasonable determination as to whether the BTWRC effectively monitored its
contractors, or had a pol icy in place to establish effective criteria to do so.

         Since the BTWRC has no current grants from the DOJ, we do not make
indi v idu al recommendations to enhance internal control issues at this time.
However, if OJP awards any future grant funds to the BTWRC, we
recommend that OJP ensure that the BTWRC implements appropriate
internal controls and procedures to safeguard those funds.

Accountable Property

      Our review of the General Ledgers identified several eqUipment
purchases that were in excess of $5,000 . Specifically, these items include
equipment purchased for the Marlin Police Department, and their costs have
been questioned under the Direct Costs section of this report. We were not
able to confirm that the items had been properly screened, were properly


                                      24 

identified, or were properly used, as there were no grant records related to
accountable property, and the items purchased were not located on site.
Since the BTWRC has no current grants from the DOJ, we do not make
individual recommendations to enhance internal control issues at this time.
However, if OJP awards any future grant funds to the BTWRC, we
recommend that OJP ensure that the BTWRC implements appropriate
internal controls and procedures to safeguard those funds.

Program Performance and Accomplishments

      The Goals and Objectives of the Weed and Seed program are specific,
and are detailed in both the program solicitations and in the grantee's
approved program narrative . The goals focus around the four areas
described earlier in this report: Law Enforcement; Community Policing;
Prevention, Intervention, and Treatment, and; Neighborhood Restoration.
Each of these primary goals are further broken down into multiple
objectives. In its grant applications, the BTWRC noted detailed plans to
meet each primary goal and related objectives; however, as detailed in the
Grant Reporting section of this report, progress reports generally did not
include information detailing such progress.

       We interviewed the former Site Coordinator to gain perspective as to
what the BTWRC viewed to be the goals and objectives of the Weed and
Seed program. The Site Coordinator believed the goals included change in
the overall community of Marlin that included: getting youths off the street
and in school, changing the mentality that it is acceptable to not complete
one's education, and to improve the general self-worth of those in the Marlin
community by providing classes to aid in skill development. We
acknowledge these as worthy goals, but did not find that they address all the
specific goals required by the CCDO, outlined above. We again attempted to
contact the former Steering Committee president, but that individual was
unresponsive to our requests for information .

      We were not provided with documentation with which we could make
a reasonably supported statement that the goals and objectives of the
program were achieved. Since the BTWRC has no current grants from the
DOJ, we do not make individual recommendations to enhance internal
control issues at this time. However, if OJP awards any future grant funds to
the BTWRC, we recommend that OJP ensure that the BTWRC implements
appropriate internal controls and procedures to safeguard those funds.




                                     25 

Closeout Activity

       The OJP Financial Guide requires that recipients submit a final FSR
and final progress report within 90 days of the project end date. As noted in
the Grant Reporting section of this audit, an acceptable fina l progress report
for Grant No. 2006-WS-Q6-0204 was not submitted . Additionally, while the
final progress report for Grant No. 2008-WS-QX-0196 shows as accepted as
of December 8, 2008, the status remains as incomplete in the closeout
package.

     The findings associated with the OJP's OCFO's audit report have not
been sufficiently resolved, so a closeout package for Grant No.
2007-WS-Q7-0111 has not been completed.

      As discussed in the Grant Reporting sections of this audit, financial
reporting submitted for the awards was not accurate. We identified a
balance of $9,105 related to Grant No . 2006-WS-Q6-0204, $25,596 related
to Grant No . 2007-WS-Q7-0111, and $3,215 related to Grant No .
2008-WS-QX-0196. The OIG coordinated with the OJP's OCFO to remedy
these balances, and at the time of our audit all outstanding funds have been
recovered, as shown in Exhibit 13.

  EXHIBIT 13­ FUN DS RECOVERED AS A RESULT OF THIS AUDIT
            -                                   TOTAL           AVAILABLE FOR
    AWARD NUMBER         TOTAL DRAWDOWNS     EXPENDITURES            RECOVERY
  2006-WS-Q6-0204           $ 175,000         $ 165 895              $ 9105
  2007- WS -Q7-0 111          200000            174404                25,596
  2008-WS-OX-0196              16841             13 626                3215
  TOTAL AVAILABLE FOR RECOVERY:                                      $37915
  Source : OJP's Grant Management System and grantee bank records.

      As detailed above, we found that the grants were not accurately closed
out, and that funds remained in all accounts . Since the BTWRC has no
current grants from the DOJ, we do not make individual recommendations to
enhance internal control issues at this time . However, if OJP awards any
future grant funds to the BTWRC, we recommend that OJP ensure that the
BTWRC implements appropriate internal controls and procedures to
safeguard those funds.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and


                                        26
cond itions of the grant, and to determine program performance and
accompl ishments . We identified material non - compliance in the following
areas:

   • 	 Sufficient controls were lacking in all areas tested, including 

       purchasing, receiving, payment, payroll, drawdowns, budget 

       management, reporting requirements, grant requirements, 

       contractors, accountable property, and closeout. 


  • 	 The BTWRC expended $169,907 in unsupported payroll costs and
      $29,794 in unsupported fringe costs.

  • 	 The BTWRC expended $4,592 in unsupported contractor costs.

  • 	 The BTWRC expended $86,751 in unallowable direct costs and 

      $51,505 in unsupported direct costs. 


  • 	 The BTWRC expended $12,877 in unsupported unidentified questioned
      costs.

  • 	 The BTWRC reported $63,010 in unsupported costs associated with the
      match requirement for Grant No. 2006-W5-Q6-0204.

Recommendations

We recommend that O]P:

  1. 	 En sure that the BTWRC implements appropriate internal contro ls and
     procedures to safeguard DO] funds before awarding any future grants
     to the BTWRC .

  2 . 	Remedy the $169,907 in unsupported payroll costs .

  3. Remedy the $29,794 in unsupported fringe costs .

  4 . 	Remedy the $4,592 in unsupported contractor costs.

  5. Remedy the $86,751 in unallowable direct costs.

  6. Remedy the $51,505 in unsupported direct costs.

  7 . 	Remedy the $12,877 in unsupported unidentified questioned costs .




                                       27 

8. Remedy the $63,010 in unsupported costs associated with the match
   requirement for Grant No. 2006-W5-Q6- 0204 .




                               28 

                                                              APPENDIX I 


            OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the awards, and to determine program performance and
accomplishments. The objective of our audit was to review the Booker T.
Washington Resource Center's performance in the following areas: (1)
internal control environment; (2) grant drawdowns; (3) grant expenditures,
including personnel costs; (4) budget management and control; (5)
matching costs; (6) grant reporting; (7) compliance with grant
requirements; (8) monitoring contractors; (9) accountable property; (10)
program performance and accomplishments; and (11) closeout activity. We
determined that indirect costs and program income were not applicable to
these awards. This audit included Grant Nos. 2006-WS-Q6-0204,
2007-WS-Q7-0111, and 2008-WS-QX-0196 totaling $525,000 . This audit
concentrated on, but was not limited to, August 15, 2006, the date Grant
No. 2006-WS-Q6-0204 was awarded, to August 8, 2011, the date on which
OJP's OCFO received repayment of all grant funds that had remained in the
BTWRC's accounts.

       Our testing was limited by the lack of documentation we received from
the grantee. Generally, we conduct sample testing in several areas of grant
expenditures, including payroll and fringe benefits, direct cost transactions,
and contractor costs. Since complete grant records were not provided to us,
we were unable to conduct such testing. We used the limited information
provided to review all grant expenditures. During this audit, we identified
certain issues requiring further investigation. We made a referral to the
OIG's Investigations Division, and put our audit on hold pending resolution
of the referral. Subsequently, we were able to complete our audit and issue
this report.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria




                                     29 

we audit against are contained in the OJP Financial Guide and the award
documents.

       In addition, we reviewed the BTWRC's budget management and
contro l; evaluated the timeliness and accuracy of financial reports and
progress reports; evaluated compliance with grant requirements; evaluated
the grantee's monitoring of contractors; and reviewed the organization's
internal contro ls. However, we did not test the reliability of the financial
management system as a whole since rel iance on computer based data was
not sign ificant to our objectives.




                                     30 

                                                                        APPENDIX II

             SCHEDULE OF DOLLAR-RELATED FINDINGS


OUESTIONED COSTS 13                                            AMOUNT             PAGE

     Una ll owable Direct Costs:                                   $86,751          13
     Total Unallowable:                                            $86,751

    Unsupported Payroll Costs:                                   $169,907           12
    Unsupported Fringe Costs:                                     $29,794           12
    Unsupported Contractor Costs:                                  $4,592           13
    Unsupported Direct Costs:                                     $51,505           13
    Unsupported Unidentified Costs:                               $12,877           18
    Unsupported Match Costs:                                      $63,010           19
    Total Unsupported:                                           $331,685

    Total (Gross):                                               $418,436 

    Less Duplication:    14                                       ($1 , 500) 


Net Questioned Costs:                                         $416,936 15




        13 Questioned Costs are expenditures that do not comply with legal, regu latory or
contractual requirements, or are not supported by adequate documentation at th e time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

       14 Some costs were questioned for more than one reason. Net questioned costs
exclude the duplicate amount.

       15 This amount includes all drawdowns and the match requ irement for Grant
No. 2006-WS-Q6-0204. The total has been reduced by the $37,915 recovered as a result of
this audit.


                                            31
                                                                            APPENDIX III

                                  UNSUPPORTED
                                QUESTIONED COSTS

           2006-WS-Q6-0204'6
           Personnel                                           $   888 26
           Fringe                                                  17 061
           Contracts                                                    -
           Travel                                                  12044
           Equipment                                                1500
           Supplies                                                 2634
           other                                                    3020
           Not Identified In Budget                                 9203
           Match                                                   63010
           2007-WS-Q7-0111
           Personnel                                               69006
           Fringe                                                  12733
           Contracts                                                3426
           Travel                                                   2997
           Equipment                                               29064
           Supplies                                                  246
           other                                                    -
           Not Identified in Budget                                 33 70
           2008-WS-QX-0196
           Personnel                                               12075
           Fringe                                                       -
           Contracts                                                1166
           Travel                                                       -
           Equipment                                                    -
           Supplies                                                     -
           other                                                        -
           Not Identifi ed In Budg et                                       304
           Total:                                             $ 331 685




      ,. Total questioned costs include the $27,547 in unallowable net transfers from Grant
No. 2007-WS-Q7- 0111 to Grant No. 2006-WS-Q6-0204 .


                                            32
                   UNALLOWABLE 

               QUE STION ED COSTS 

            AWARD NUMBER   I AMOUNT QUESTIONED
2006-WS-Q6-0204
Equipment                      I   $ 60500
Bank Fees                      I       155
2007-WS-Q7-0111
Equipment                      I     25985
Bank Fees                      I        31
2008-WS-QX-0196
~uipment                               -
Bank Fees                                80
Total:                         I   $ 86 751




                        33 

                                                                                           APPENDIX IV

OPT OUT, CEASE AND DESIST MEMORANDUM



                                                     November 8, 2008




M'.I11111!1!1_ CCDO 

Progrum Manager
810 7th SI NW, 61h Floor 

Washington, DC 


DcarMr._

This is to inform you that the lloal'd of Directors of the Bool(cr T.
Washington Resource. Center has voted un;mimously to opt out of the
Marlin Weed and Seed Program.
        We recognize thaI thc Weed and Seed effort is an excellent program, and is tailor
made for a community slich IlS Marlin. We at Booker T. Washington, however, pride
ourselves in requiring that nil funds with which we ,Ire involvcd arc handled properly in
accordance with grant requiremcnts, regulatory agency directives, and legal statutes.
        Improper usc of funds (federal, slate. local , donated) is something that we cannot
participafe in. Such nclivily will evcntually prove fatal to our non·profit status. We have
attempted over timc to work wilh the lo(:al steering commillcc 10 rectify conditions that
have led to this situation. The cfTOt1S have not been successful.
        The ctTeclive dale of this tlction is Novemhcf 14,2008. As tl result of th is action,
the Booker T. Washington Resource Ccnter hereby notilics Ihal the lise of the FederallD
number (83-0358943) and nmne of the Booker T. Washington Resource Center by Marlin
Weed and Seed or <lny other orgnnizalion is prohibited. Please do nol st:nd additional
funds under our nome or 10 number 83-0358943. Thanking you in advance.

Clyde Chandlcr - Attomey Assisting Booker T. Washington Rcsllurce Center, Inc.

      I!I!IIIII!III

      --
Cc:
       Johnny Sulton


      Internal Revenue Service

       or
Board Directors - [looker T. Washington Resource Center, Inc.
Jimmy Phillips - Prcsidc-lIt
Comell Jones - Vice-President
Lear Alford - Secretary/Publicity Clmirpcrsoll
Helen Woodson - Treasurer
Robert Timm s
Deborah Raphael
Marilyn Marlin




                                                 34 

                                                           U.S. Ocpa rtment of Justice

                                                           Office of Jllstice Programs

                                                           CfJ/JllJlllllily Capacity DCl'(dopIIICIII Offict!



                                                           If'llSltlllgl<1l1. D.C. 20.U I



                                                             NOV 2 02001



--
 Mr. Clyde Chand ler



 Dellr Mr. Ch:mdler,

Thank you for your correspondence ofNovcmber 8, 2008, c-mai led to ollr office on November 13,
2008, informing \1 5 lhal the Booker T. Washington Resource Center will no longer part icipate in the
Weed and Seed program as the Fisca l Agent for the Mnrlin Weed ~Uld Seed site. In order for the
organization to rel inquish that responsibility, and to ensure proper closeout of lhe two open grants,
the grantee will need to su bmit the fo ll owing into the Grants Management Systcm (GMS);

A. For grallt #2008 -IVS-QX -0196:

      I. 	 A final SF-269 indicnting there were 110 drows on the nward ,lIld the current balance is
           $150,000.
      2. 	 A final progress report for the period 7/ 1 - 11 114/08.
                                                      /08

B. For grant #2007-IVS-Q7-0111 :

      I. 	 A final SF-269
      2. 	 A fina l progress report for the period 10/ 1/08 - 11 114/08.

Please ha ve the Booker T. Washinb1{On Resource Center submit the required doculI1entation into the            I




system 110 later thnn F.-iday, November 28. 2008. Also, if you would. plea se have the grantee
respond wit h questions to the eCDO's'.PlrIOlgl"lnl'lnl'"lnlgerl~l
                                                           nii olrlthleISilate of Texas, Mr.      He
ca n be reached at (202)5 14-5625 or at.

Si ncerely,


/Ys/-<6-~
Dennis Greenhouse
Director, CeDO



                 i
cc:                j"j.A.t~,oirney, Western Distri ct of Texas
                                      AU SA, WDTX
                                       WDTX
                                 Director for Programs 

                        SUIWv j""yG rant Specia li st, CCDO 

                           I   I>rogram Mmluger, eena 





                                                     35 

                            CEASE AND DESIST NOTICE
Booker T. Wash ington Resource Center, Inc.                   November S, 2008
P. O. Box 1338
Marlin, TCX(lS 7666 1

Marlin Weed and Seed
1'. O. Box 1234
Mnrlin, Texas 7666 1

Ms. • • • • •I:-Stccring Com mittee President

Denr.'••Thi s letter is 10 inform you that from thi s dale, November 14,2008 , forward , yo u are 1101
to write grants, solicit grant fUlldin g, 01' transact business in the name or the Booker T.
Washi ngton Resource Center, Inc. or usc its EIN #83 -0358943 for any purpose.
         This letter will serve as notice to yo u al so \0 1101 sign any additional fundin g requests as a
representative of Booker T. Washington Resource Center, Inc. Since items on the August 20
letter and unpaid utilities have not been successfully resolved, Buoi(cr T. Wllshington n.CSOIII·CC
Ccntcl', Inc. is opting out ofthc cntirc \Vecd nnu Seed Ilrogrmn.
         Its nnJl1C and EIN will not be llsed for any purposc as of Novcmbcr 14,2008, nor should
you portray yourself as a represent ative of thi s organization. Booker T. Washington Resource
Center, Inc. assets and property will no longer be lIS CO in the Weed and Seed initiative.
         This letter will supe rsede any other directions, ve rbal or written, which may indicate yom
ability to act for or sign all behalf of the Booker T. Washi ngton Resource Center, Inc. in any
capacity.

Cc: Members of Weed and Seed Steering Commi ttee
    Ci ty of Marlin
    Internal Revenue Service




Boord of Directors 

Booker T. Washington Resource Cenler, Inc. 


Jimmy Phillips - President 

Cornell Jones - V icc~ Prcs idcnt   

Lear Alford - Secretary 

Il elen Woodsotl- Treasury 

Robert Timms 

Deborah Raphael 

Marilyn Martin 


Clyde Chandler - Attorn ey Assisting Booker T. Washington Resourcc CelllCl', Inc.




                                                  36 

                                                                                                             APPENDIX V

BOOKER T. WASHINGTON RESOURCE CENTER RESPONSE
           TO THE DRAFT AUDIT REPORT




                                 BOOI(ER T. WASHINGTON RESOURCE CENTER,INC
(
                                                    P. O. BOX 1338

                                                 MARLIN, TEXAS 76661



     MAi'!llN W£WANO $(WAUOI T

     OFF'IClAl RESPONSE

                                                 EXECUTIVE SUMMARY



     :,outh Marlin wa s awarded a Weed and Seed grant t hrough the Ueparlment of JUstiCe! In .lUU6. I hl~
     program de pend ed greatly on the collaboration of local organizations, police agencies. elected officials,
     and th~ community at large to improve the conditions in a drug Infested, marginalized section of the
     city. Groups were form ed to help weed out the undesirable aspects at the area, and seed In positive
     activities that would Improve the established target area.



     I lie role oj the Uaoker I . Washington He~ou((e LelltC'f, Inc. (U IWKL) was to be the Sl l e 01 the )aie
     Haven, and provide building space for the admInistration and the program activU les to operate. The
     orlclnal plan was for the City of Marlin to sponsor the grant and serve as the Fiscal Agent for the project .
     On final approval and fund ing, eTWRC learned that its EIN had been used to secure Ihe grant. Since this
     was dllferent from the orIginal plan, BTWRCsoueht clarification . 8TWRC was told bV Mr._. ._ _
     (Ucpa nmem oj Justice ·Public A!fatrs Ofhcer·westcrn Dlslri(t- rex.ls) that even thouCh 3IWIK' s EIN had
     been used, the grant did nol belong to STWRC. He went on to say 8TWRC was not liable tOt the grant
    and (hat the Steering Committee was the Fiscal Acent. Other sources said that 81WRC was the Fiscal
    Agent. Despite nume rous requests, BTWRC was not provIded a copy of the submitted erant documents
    to sec who was offlcially named as Fiscal Acent, ;;Ind who authorlled it. Copies of le ite rs a nd Steering
    Committee mee ting minutes mdlcate that Flscil l Accnt status held ch,lIIced to the Weed a nd Seed
    Steerinc Committee. Although BTWRC continuously requested a copy of thl! grant document, aTWRC
    never received one from the beginning o f the program until this day. Arter uncovering many troubling
    items in the financial ac tivities 01 Weed and Seed, BTWRC wrote complaint leiters to Inspectors General
    in both the Treasury Department <lnd the Justice Department outlining the pro bll!nu It had round and
    fequested a financial audit 01the progrdm. On Nove mber 1:1, .luOI:l, UrWHC sent Cease and uesist and
    Opt Out letters to the Ilppropriate patties and ended its support of the ptogt<lm and the program ended.
    In this document, we wlU explain the life of Weed and Seed in Matlin. Supporting d ocumentation will
    bolster key points (Item U · numbers will note their existencel. a nd can be found at the end of the
    report.




                                                           37 

                                           TACil E Of C.ONT[NTS



EXECUTIVE SUMMARY                                                                                      1


ABOUT THE 80 0 i\ 1: R1 . WASl lli"GTQN RESOURCE ctNTER INC. (BTWR
                                                       ,          Cj                                   3


BACKGROUND ON WEED AND SEED IN MARLIN, TEXAS                                                           3


UNEXPECTED CHANGES                                                                                     4


jJAYROll TAXeS UNPAID                                                                                  5


OTHER PROBLEMS DISCOVERED                                                                              S


OUTREACH TO THE INSPECTOR GENERAL                                                                      6


m WRC OPTS OllT OF WF., ED AN D SEW                                                                    ,
SUMMARY                                                                                                ,
RESPONSE TO RECOMMENDATION SOF THE INSPECTOR GENERAL                                                   9





N O ll:: !:IUPPURllNu DOCUM ENJ A IION   tlllM III II"If<OUGIiI rl:.M ,(24)   E N l LO~lD t-OlLOWING


      SECTION; RESPONSE TO RECOMMENDATIONS OF THE INSPECTOR GENERAL




                                                  38 

                      AUOUIIHI: UOOKEK t. WASWNGION              H(~OURCECEN1 ER,      INC. (UIWR<.:j




    Th e Booker T. Washington Resource Center, Inc. (BTWRC), loca ted in Marlin, Texas, is a SOl© {3j tax
    exempt, non-profit community organization. BTWR C's missio n is to provide assistance to aHisk youth,
    tanuhes, senior CItizens, and the underprivileged while restoring eS{eemlO the community. This is done
    by providing building space to organizations that provide those relevant services directly to the target
    audience in the community. STWRC also provides space for youth recreation, after school tutoring,
    well ness classes, job skills aSS istance, college prep classes, and fin ancia l literacy classes . Established in
    2003, The BTWRC has never had employees in the Marlin location, All wo rk in Marlin is performed by
    the Board of Ulrectors or volumeers from the commun ity. I here are no paid employees at the BrWRC
    site In Marlin. Beginning in May, 2012, a fundraislng activity was started in another cily for our
    organization, and that effort has a small number of part· time employees paid from the proceeds of that
    fund raiser.
(




                                BACKGROUND ON WEED AND SEED IN MARliN, TEXAS



    In 2001, the City of Marlin bega n the process of applying for a Weed and Seed grant to help red uce
    some of th e problems that were plaguing the city. Problems included inadeq uate youth development
    opportunities, drug lfafhckillg, dilapida ted SlrUClures, lack oj economic development, and lhe need for
    stronger police action. These issues are preva lent in much of the city, but are Illore pronounced In South
    Marlin. South Marlin became the target area to be impacted by the applica tion f or Weed and Seed
    assistance. Key to receiving Weed and Seed assistance was the need to show substa ntial collaboration
    between o rganizations, businesses, com munity leade rs, and elected officials who would work together
    10 improve the target area , A Steering CommJltee was formed, and (h e members represented int erested
    organiza tions from throughout the city. At first, the application to become an officially recognized Weed
    and Seed Site was denied. The Marlin Main Street M anager who worked on the grant moved to another
    dty. The Weed and Seed application languished. After some lim e, it became known that th e former



                                                             3




                                                          39 

 ~ t eerlll g Lommiuee .... resident jMs.              ) had successiully comple ted thc application. I hrough
 hcr e ffo rts, Marlin became offici ally recognized as a Weed and Seed site.




                                           UN(XPECTED (I IANGES




The original application for oHicial recogn ition by Weed and Seed showed the City o f Marlin as sponsor
and Fiscal Agent for the grant (Item In). 5inc," BTWRC was located In the target area, it was selected to
be the =>3(e t-I aven jltcm rrl). As th e Sa fe u aven, I3IW~ [wo ul d provide building space for Weed and
Seed administrators as well as space for related Weed and Seed activities. In 2006, it became apparent
that the Crant would be funded. Shortly before funding, the BTWRC board lea rned th at the final
application had been submitted unde r BTWRC's fiN . The original role of BTWRC was to provide Weed
and Seed operating space In the Safe Haven. This change presented a problem, and BTWRC sought a
mee tinc wu h the major participants to get clarifICation. Un ~ep te mber 19, .lUOb, a mee tlftg was held 10
discuss collabora tion Issues between BTWRC and Weed and Seed. Mr.                         (DOJ-Public Affairs
Officer, Western Di strict of Texas) sta ted that even though the EIN of eTWRC was used to secure th e
grant, BTWRC was not liable for Weed and Seed funds (Item 113), and the grant did not bel one to
BTWRC. With that Info rmation, BTWRC then allowed the use of Its EIN to open a bank account to
receive Weed and Seed fund s. Ma rhn 's (then) Lily Manager Slated tha I as f iscal Agent, the City at
Marlin would need a copy of the grant as fun ded. Mr. _          stated that the Fi scal Agent had been
changed an d the Steering Committee would serve as Fiscal Agent . The (then) City Manager pressed for
a copy of the grant, and Mr. _         said he would try to get him one. On January 24, 2007, the (th en)
City Manager told t he BTWRC Vice President, that after visiting with                   In the CCDO office In
Washington, they thought UI WRC was riscal Agent (ue mIt4). Mr. _              confirms hIS belief by fax
(item liS). After furth e r consultation with IRS, BTWRC asked Mr. _         for a copy of the approved
crant, and explains that its initial work would center o n t he status of payroll tax withholdlne (Item 1 16).

On April 10, 2007 , the (th en) city manager writes a letter to members of the U S Attorney's office,
rerolindine them o f fheir promise 10 provide him l.'Iith a copy of the approver! erant (Thl? ('it\' never
received a copy). In that letter, he also noted that Mr.                had volunteered that the grant was
being amended to assign Fiscal Agent responsibilities to a third party (ltem#7) .

The re-asslgnment of Fiscal Agent duties docs happen. Th e minutes of a Weed and Seed Steering
Commi ttee meeting he ld on April 12, 2007, shows the group working on upd ating its Po licies and
"rocedu(es. Ms. _      says once th ey finIsh them, tiley wlil need 10 go 10           HI WashmClon 0 [
(item #8). The issue of the Fiscal Age nt comes up. Ms .. . . stated "being that th e Marlin Wee d and
Seed is overseen by the Steering Committee, she would like 10 80 ahead and let the record rerlcct that
the Weed and Seed Steering Committee will serve as fi scal acent fo r the Marlin Weed and Seed
Program". A form er City Council member on the Steering Committee states that since the Fisca l Agent




                                                   40 

mmter has been such a sticky Issue, she requests " roll caU vote. The roll is calied ilnd all prescnt vote
yes to the Steering Committee servine as the Fiscal Agent (Item 119). This action dovetails with the
statement made by Mr.                  on Septemher 18, 2006, that the Steering Committee would serve
as Fiscal Agent.




                                           PAYROll TAXES UNPAID



In July, 2007, BTWRC received an IRS letter in its PObox 1338 (Weed and Seed had a separate box
number 1234) requesting form 941 filing ror tilx period 12/31/2006 (Item fila). BTWRC had no
employees from inception (LOU)) umll2.011. When IH) asked for 941 (epom injury iUOl, III WHl had
no employees. Knowing thai Weed and Seed had employees, the BTWRC President and Vice President
spoke to Ms.~bout whether she had flied 941 reports forthe 4 1 quarter of 2006 und 1" and 2~
                                                               "
quarters of 2007. Ms._said she would look Into it and get back to us. She later callad the aTWRC
President and told him to pul zeroes on the return, and send it back. We began our efforts to get taxes
paid . We requested meetincs with the Steering Committee, but were met with cancelled mectlns
replies (Item 1111). Through effort s / will explain later, BTWRC learned taxes had not been paid.
Confronted with this fact in August, 2007, Ms. ~ stated that taxes would be paid. By Dece mber,
2007, this still had not been done.

Wflc:hinEfnn h;l <Prl rcoo Proer.'lm Mflnaeer               ~nd              vi$ltprt M:trlin Weprt anti   ~ eprt

on December 20,2007 (Item "12). The BTWRC Attorney and the BTWRC Vice President met with them
and discussed the non-payment of payroll taxes for 4t h quarter 2006, and the first 3 quarters of 2007
(Item liB). Mr. _     silid he would get back to our Attorney. Mr. _          return correspondence
viewed it as a local dispute (Item 1114) . Weed and Seed invited aTWRC to a called meeting on January
3], Z008 Ot(>m #15). Ms_         gave aTWRC re prescntatives copies o f 91\1 document s s howin:! she had
made 941 tax payments on January 29, 2008 for41~quarter 2006 - $997.09; 1 ~1 quarter 2007 - $3,827.24;
2 nd quarter 2007- $4,667.52; 3 'd quarter 2007 - $6,014.20; and 4t~ quarter 2007 - $8,372 .85 (Item 1116)




                                      OTttEfl PROOl[MS lIIS(OVERED

BTWRC dId not have possession or access to Weed and Seed files. Weed and Seed WilS viewed as a
stand -alone entity supported by various collaboratIve croups . Earlier in our efforts to find out if payroll
taxes had been paid for 2006 and 2007, BTWRC needed caples of checks and bank statem e nts to


                                                      5




                                                   41 

deternllne if payroll [axes had been paid. The UI WK( l10ard President, a 5leerlllg (omnllttee member,
had signatory authority on the Weed and Seed crant checking account. He requested, and was given
copies of bank statements and checks on the crant account from September, 2001) to December, 2007.
When Ms. _found out that BTWRC President had secured the copies, she relayed that information
to Mr. II1II. M r _ became upse t The erWRC President was removed as a signer on the account
and was unable to receive morc check copies and ac(Ounl.H3lements trom the bank. Ihe Iii Wt{(;
President said that hewJs ostracized by M r _ , and that Mr. . . . never spoke to him again from
that day until the grant ended. Getting the bank statement copies and check copies he lped BTWR C look
further into Weed and Seed activities. These items were lIsed to develop a spread sheet showing
monthly revenue and cost activity (Item 1117). Further study of these spreadsheets raised red fl ags o n
other items.

Some Travel cost and per diem Items appeared to be suspect. In October, 2007, some Weed and Seed
Steering Committee members took an out of town trip , Check ff596 (10/22/07) reimbursed Ms.",
Weed and Seed Steering Committee President, $2,292.50 for hotel, conference, and van expenscs. On
r.h (!ck.1I597 (lo/n/On Ms. ~ was 1'111(1 a " additional $1,000.00. In th~ memo 5 ~("tton, It 5tiltes "10
people per diem conf". Further questioning of particIpants showed that some trave lers were not given a
full $100.00 share of the per diem. The review of check. copies also showed pavroll advances received by
several Weed and Seed employees, Including a $1,500.00 advance to Ms." (Item 1118) . We were
not able to determine if the advances we re paid back because the BTWRC President was prevented
from receivln::: ndrlitional check copies and bank ~ t a temcnts from the bank .

BTWRC scheduled a meeting for September 25, 2008, inviting the Weed and Seed Steering committee
and Ms. ~ to discuss these and other items (Item 1119), Several members of the Weed and Seed
Steering Committee attended to discuss th e information that we had gathered. Because they attended
the meeting with us, one attendee stated that Mr. ~aJled them traitors. Ms.~ dId not attend
the meeting citing a previous engagement (Item h20),



Th e Steering Committee members that did come scheduled a follow-up meeting with the full Steering
Committee in their offices on October 9, 2008. At that meeting, the Steering Committee was concerned
enough about th e per (hem payments and employee advances that the f- alls County Anorney (mem ber
of the Steering Commiltee) volunteered to perform an audit of Weed and Seed financial activities (Item
021) .




                                OUTR(ACII TO TH EINSP(CTOR GENERAL

Realizing, that it would never get clear Information or a copy of the grant; grant adminislmtion was
deliberatelv secretive, efforts to get ass istance had tailed, and that unknown financial conditions could
continue to get worse, BTWRC reached out to th e office of th e Inspector General. It sent the exact same



                                                    6




                                                 42 

    supported complaint letter to the Treasury Department Inspector Gcncfill.md the Justice Department
(   Inspector General (Item 1122).




                                      BTWRC OPTS OUT OF WEED AND SEED

    Knowi ng that HS (rue role in Weed alld Seed had not been deiHly identified, and r ecogn izing that funher
    participation in the Weed and Seed program would not bring morc clarity, BTWRC issued an Opt Out
    letter on November 8, 2008 (Item 1123) and a CeasE' and Desist notice (Item 1124) ending its Involvem ent
    wIth Weed <lod Seed.




                                                     SUMivlAR{




    The Booker T. Washington Resource Center, inc. was misled from the beginning of the awarding of th e
    Weed .1nd Seed grant to Marlin, leKas. The original filing for Weed and Seed had till! City of Marlin as
    Fiscal Agem <lnd UrwR( as provider of space for (he ~afe Haven. Upon award, we lea rned changes had
    been made from the original grant application. BTWRC's EIN had been used to secure th e grant. BTWRC
    did 110t authorize its use. Thi s presented a problem; the City of Marlin was to be the erant sponsor. At a
    clarification meeting held on September 18, 2006, Mr,                 (Public AHairs Officer with the
    Departmen t of Justice), told STWRC that although It's EIN had been used to secure the grant, BTWRC
    was not liable for any Weed and Seed funds and that the grant dId not belong to UI WKc' I he Marlin
    (then) City Manager, in the role of Fisca l Agent, th en asked for a copy of the grant as funded, M r , , ,


    act as Fiscal Agent. The City M anager pressed for a copy of the grant, and   Mr_
    told the City Manager that the Fiscal Agent had been changed, and that the Steering Committee would
                                                                                             said that he would
    try to get him one. I do not think th e city ever got a copy of the grant, but I kno w BTWRC never received
    one. Despite repeated requests to the ::,teering committee, M r _ , Washington oifice of (COO, and
    others, BTWRC never received a copy of the grant. If BTWRC had been told by Mr. _             that funding
    the grant under BTWRC's EIN could be construed as the crant being awarded to BTWRC, BTWRC would
    have sought changes immediately. BTWRC would have in sisted on transferring grant status to some
    other entity and hiring some firm (CPA firm   or other Institutlon) to handle financial aspec ts of the grant.
    BTWR( docs not seck or i1dministcr program grants. Its sale purpose Is buHding renovation, restoration,
    and maintenance, to provide space for those organizations that wish to administer programs, whether
    they h ave grant funding or not. BTWRC does not understan d Mr. ~ motivation for stat ing that:

            (1) The use of aTWRC EIN for the grant posed no liability to aTWRC for grant funds (if it does)
            (2) The er<lnl did not helone to 6TWRC (if it oid)
            (3) The Steering Committee was the Fiscal Agent (if it wasn't)
            (4) His refu sa l to provide grant copies to BTWRC and the City of Marlin




                                                       43 

 UeClllning as early as. ;W U/,   (J I WIH':'s   <lnorney Instructed Ih e Madill Weed and Seeuro:

     (1) Secure its own EIN to operate th e grant activity
     (2) Have a Certified Audit of grant years 2006 and 2007
     (3) Provide eTWRC with a copy of the grant 

     1"1 EnS\IH> thl"l a n ~w J:is(?1 Acent is aS$icned te- the zrant 




     Though the assertions are that BTWRC was the fiscal agent, no one would produce the official
     document from the grant package that would prove or disprove it. Actions on the ground seemed
     to indicate Just the opposi te; someone wanted the Steering Com mittee to act as fiscal Agent as
     evidenced by the following actions :

     (1) 	 In the meeting held on September 18, 2006, Mr• • • • states the grant does not belong to
         BTWRC, It has no liability for grant funds, and the Steering CommiUee Is the Fiscal Agent (Item

         "'I
    (2) 	 In an April 10, 2007 letter to the Assistant U. S. Attorney In Waco, the (then) City Manager says
          that Mr.                volunteered that the grant was being amended to assign the Fiscal Agent
          responsibilitie s to a third party (It does not say from what entity it is coming from or to what
         entity it Is going to) (Item tl7)
    (3) In SteC'ri n:;: Committee m inutes o f April 12. 7007, m embcr s arc develop!nc Policies and
         Procedures that Ms_ statcs are to be sent to M r _ at ccoo. M~ stated " being
         that the Marlin Weed and Seed is overseen by the Steering Committee she would like to go
         ahead and let the record refiect that the Weed and Seed Steering Committee will serve as Fiscal
         Agency for the M arlin Weed and Seed Program". A member of the committee stated "being that
         the Fiscal "cent h ~ s been such a sticky issue, she would lik!! for M 5_ t o do J ro!! cilil. M!:.
         _      asked the Steering Committee members present to respond yes or no to the question o f
         the" Steering Committee being the fi scal agency for Matlin Weed and Seed. All responded " yes"
         for the Steering Committee to be the fiscal agent for the Marlin Weed nnd Seed Program (Item
         "9)



1 he comment by (lie   ~ te e(/n g   Commiu ee member thar the Hscal Agent had b cen ;) " sticky issuc" is at
the heart of the problems that developed at Marlin Weed             and Seed. An excellent program went bad
because the truth w as not spoken In regard to the identity and role of the participants . The correct
name of the Fiscal Agent should have becn known by all from the beginning of the grant. The shell game
played with that posit ion created a w eakness that could not be remedied. The Cease and Desist nolice
and Oi" Out letter were the only ways for In WKC to ensure Ihat It was no t IIscal agent, and curtail
anyone from using its EIN. The web was so tangled; the only optio n was to kill the grant.



                                                             8




                                                           44 

    IJ I WRl asked the InspeclOr General' s offICe to audit the program. \Jur goal h as aiways t>een 10 ensu re
    that the program Is administered properly. 1/1 spite of not havi ng access to any of the records of Weed
    and Seed, and never receiving any Weed and Seed fund s, eTWRC will work with the Justice Department
    t o try to reach final resolution.

                         RESPONSE TO RE(lflAM€ NDATIONC; OF THF INSPECTOR (.;"ff'.'[Rfl.l

    Inspector General recommends that OJP:

    1) Ensure that the eTWRC implements appropriate internal controls and procedures to safeguard DOJ
    fund s before awarding any fu t ure grants to the I3TWRC. 


    11 Hemedy the $1b~, ~OI in unsuppurtt!d payroll co:.ts . 


    3} Remedy the $29,794 in unsupported fringe costs. 


    4} Rem edy the $4,592 In unsupported contractor cost. 


    ~) Remedy the $86, 1~ 1 in unallowable direct costs 


    G) Remedy the $51,505 in unsupported direct costs 


    7) Remedy the $12,877 In unsupported unidentified questioned costs 


(   8) Remedy Ihe $&3,UlO III un supponed (osts associaleu with the nmlch requirem ent for Grant 1>.10.200&·
    WS·Q6 ·0204.



    OTWRC Response to Recommendations:

        1) 	 U1WRC agrees with recom mend'llion ttl
        2) 	 Recommendations 112 through 118
            Althoueh BTWRC has not seen the records that involvc these costs, and rcceived none of the
            funds expended by the Weed and Seed Program, w e are willinc to work with the Department of
            Justice and explore methods that could be used to resolve these items.




    «ev.Jimmy




                                                         9




                                                      45 

                                                                                                           APPENDIX VI

OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE DRAFT
                   AUDIT REPORT

                                                                     U.S. J)cp;"'tm cnt or .Iuslic:c



                                                                    Office ofAlldil, Assessment, am/ Mw/(/gc lI/c/I'



                                                                   H'I1/HnxIOlI. lJ.C 10$)1

            JUI; ': 6 2013



      MEMORANDUM TO:                     D;lVid M. Shccrc n
                                         RcgioTlnl,\udit Mll nager
                                         Dl~lI\'cr Regionu l AIlfJ it Omec
                                         Office or lhe Inspector General

      FROM:                             M,,,,,«n A. Ilcnneberg
                                        D'''''lor             /
                                                                          A 12\:5.o/./?.r)IJ (l,
                                                                           )
                                                                             nQ
                                                                                   )         ---'
      ~UBJECT :                         Response to Ihe. Dro ll Aud it ncporl. Amlo Q{lhc Offin: of.IIISIIt'/!
                                        l'rogmlJls G"r/mf.\' Award,," 10 'he /Juoker 7: II'tlshil1gl0l1 Rc.wJl/rt:c
                                        CC:/lIC/~ Mllr/iIJ, '/(-,,"0.\'


      This IlIctllOraUdUIll is in rererence to your corrcsponcJcm:c, llntcd May 22 , 20 13, tmnstuiUi ng the
      uhovc· rcfcrcm:cc1l1rall ;\Utl il report fur the Buoker T. W,lshinglon Rcs(lllrcc Cen ter (UTWRC).
      We consider the subject report rcsoh'cd uml request wrillcllllcccplancc of Ihis action li'om ),our
      office.

      We n:ccivcd a copy of the BTWRC's response to the (Iraft audil repon , datctl June 12,20 13. in
      which the 13TWRC :>Ialcd tlUlI they were misled regnrding their m le as the fi sca l agent for the
      Wcctl and St!cd !lnlnts incl uded in th is a udit. In mldi tioll, Ihe JrrWRC staled that the)' did nol :
       I) directl), rec(!ivc nn)' of the funds expended under the Weed und Seed program; or 2) have
      neeess to nn)' of the record;.; pertaining 10 Ihese grants. Further, the BTWRC slaled that they will
                                          or
      work w;lh Ihe U.S. Department J ustice (DO.l) and will "e>:I~ l orc methods Ih:ll could be used to
      resolve Ihese items" (i.e. , the aUllil re('lIlllmemllllions and questioned costs). ' n l C Office or
      Juslice l'rogr01ns (OJ P) finds Ihlll as the direct recipient nelhe \V~d tlIul ~ccd gralll (undli, lhe
      BTWRC is ultimillely responsible fur ildminis tering these ilwank

      Wh ile the Steeri ng C01llmi ttee may handle Ihe day- Io-day opcmlioll!i of the Weed and Seed
      pro!lrnm, thc BTWRC, os the grantee ofrccol'd, is charged with o\'crt>ighl oflhc grants, which
      indutles. bUI is not lim ilt.."ti 10: pror)Crly nccounli ng lor granl funds; subllli uing fi!ieill and program
      reports, ,IS rC(luircdj and ad(lrc!;sing audit lllld/ tl r mon itoring issues. Accordingly, OJP wi ll work
      wilh the I3T WRC to e nsure Ihaillppropriatc correcl ive tlctions nrc Illkcn 10 IIddrcss the !'Iudit
      rcporl limlings.




                                                               46 

The dratl rep0l1 cUIl(lIins cight rccollllllcndatiollSltnd S416,936 1 in net questioned costs. The
(ollowing is OJP's analysis orthe elmn nudil H      .'por( recommendations. For Cfl SC of rev iew, (he
recommc)ldations lire restated il) bo1d <lilt! arc fo llowed by our response.

1. 	       We I'ccoJUlllcmJ Omt O.W ellsure thnt the BTWn.C Implements "Illll"olll'inlc illlcrnni
           controls :uHllu'occdurcs to saregual'd U.S. DCIl.lrlmcll( of Justice (IlOJ) rllnd~ before
           IlWurdin g 1111)' fulure gnmls 1(1 the HTWn.C.
                                           '

           OJP agrees with the recommentiation. However, (he Weed nnd Seed gmnt program is 110
           lunger funded by OJP, and the BTWRC docs not have ,my acti ve grants with OJP.
           Additiollllliy, on Novcll1hl~ 1' K, 200&, the DTWRC provided 0.11' with a cease and desist
           nOli ee, whi ch c il ccti vety nutified OJP that the llrWRC wotl ld 110 longer be pm1icipaling
           in fhe Weed lind Seed grunt program, Wid would no( l'l!qUl!:;[ ndditiolllli funding from OW.
           PUfther. OJP plans to designate the llTWRC as n DOJ high-risk grantee. liS 11 resull of thc
           issues related to the BTWRC's admini stration (I f its Weed nlld Seed gt<U1 tS. Moreover, as
           n result of the high risk designation, the LlTWR C will nut be: ablc to access future Federa l
           grant funds awarded by the 00.1 until !iuch tillle <IS fhe BTWRC provides ncw ur revised
           writtcn procedul'es that nre responsive 1(,1 thi !i recollllll endation. While OJP requires
           grantees to devel op and implement writlel\ procedu res to address proeedurlll-rclnlcd
           rccoI1U1H.'ndil(ions in OIG .mdit rcporls, we do not think further action is needed (rum (he
           BTWRC tn address this rccollllllcml'ltioll hecause BWTRC is 110 longer receiving Federal
           gl'tult fl1l\d s frolllihe 00.1. Additiunally, the \Veed and Secd grant program hilS not
           reecived llppropriated fundin g since fi scal year 20 10. As such, OJP requcsL'i closure of
           this recommendation.

2. 	       We I'ccommcnd that OJP rCllledy the $169,907 in unS lI l'JlOl·tctl payroll costs.

           OJP agrees with the recumll1cndatioll. We \vill coord inntc with the DTWRC to rcmedy
           Ihe 5169,907 in questioned costs. related to unsuppurteu payroll costs charged to vnrious
           Weed and Sccu grants.

3. 	       \Vc recolllmcnd that 0 .11' rClUedy the $29,794 in unsupported fdllge henefits costs.

           OJP :Igrcc!> wi lh the recommendation. We will coordinate wit h Ihe 13TWRC to remedy
           the S29,794 in questioned costs, related 10 unsupported fringe hcnefits charged to V<ll'iOllS
           Weed and Seed grants.

4. 	       We recolllmend that ().II' remedy the 54,592 in unSlItl l)Ol'ted contractuI' custs.

           OJI' .1grecs with the recommendation. We will coordinnlc with (he nTWRC to remedy
           1he $4,592 in questioned coxts, related to ullsupported conlractor costs chargl'd to various
           Weed nnd Seed grants.




I SOIl1C: C05ll1   were questioned for more lImn one Nason. Nel questioned costs excll1de the dupticate arn(lunt.




                                                             47 

5. 	    We rccoJUlIl c.ucI th at ().IP I·clllcdy the $86,75 1 in unallowable direct costs.

        OJP agrees wilh the recommendation. We will coordinate wi th the DTW RC to remedy
        tl K~ $86,75 I in qllestioned C(l!)ts, related to ullallowabl e direct co~ ls ch<1 rgcd to va riolls
        Weed Elnd Seed grunts.

6. 	    We   '·CCIHUIIICIUI   th at OJ 1' remcdy Ihc 55 1,51.1 5 in uns uppor fed di rccl costs.

        OJP agrees with the recolll mendation. We wil l coordinate with the DTWRC to remedy
        the S5 1,505 in quc!)tioncd costs, rehtlcd to trJlsl1pportcd direct costs eh,u·Hed to vnrious
        Weed I1lld Seed grants.

7. 	    \VI.! ,'ccommcnd that OJP remedy the S 12,H in unsUPI10l'tcd unid entified
                                                   77
        <Iucsfioll cd costs.

        OJP agrees with the recolll111 endation. We wi ll coordinate with the HTWRC to remedy
        the $ 12,877 in qucstioncd costs, rclmcd to unsupported unidentified costs clmrgcd 10
        vmious Weed .md Seed grants.

8. 	    \Ve reco mm cnd th ltt 0 .'" I'clU cd)' lhc S63,010 in uliSUPP 0l't ctlcosls associa ted with
                   't!(IUirclll cnt fot' G"llnt NIl. 2 00 6~ WS~Q6 ·020 4.
        t he match 1

        OJ P agrees wilh the recom mendation. We will cot)rdim.JLt! with the BTWRC to remedy
        the S63,0 JOi n questioned cnsts, rclatt:d to unsupported costs associntcd wi th lhe match
        requi rement tbr grunt num ber 2006· \V~ - Q6-02()4.

We upprcciate the opportunity to review and comment 0 11 the dran aud it report. If you have any
questions or require !Itldiliunal inlo rmatioll, please contact Jefrcry A. llnley. DCP\lty Director,
Audi lalld Review Division,ull (202) 616-2936.

cc: 	   Jeffery A. I-I alcy
        Deputy Direclor, Al1(li t and Rc"it:w Division
        Office uf Audit, Assessment, nnd ManagcmclIL

        l)cnisc O'Donnell 

        Director 

        Bureau or Justice Assistul1cc 


        Ei leell Gany 

        Deputy Director 

        Bu reau or Jl1Sticc Assistance 


        Tracey Trflutmtm 

        Deputy Director f()]" Programs 

        Bureau of Just ice Assistance 





                                                     48 

cc:   James   SjJ1l0n~O Il
      Iluugct Director 

      Bureau uf Justice Assistance 


      Amunda LoC icero 

      Audit J.i.li son 

      BlI1'cau of Jll sticc Assistance 


      Cory RHndolph
      (irant Program Spcciaii:-;l 

      BlircHu Of'.lLL<.;tit.:c Assistance 


      Faith Dakel' 

      Associate I)ircclor 

      Ofticc oC Sex Orfender Sentenci ng, Monitoring, 

       Apprehending, Registe ring. and Tracking

      Richill'd P. Theis
      Assishml Dircclor, Audit Liai son (inlup
      Internal Review find Eva/lUltion Oflicc
      Ju~\t i cc Management Division


      OJr Executive Secreturiat 

      Control Number 201 30741 





                                                49 

                                                           APPENDIX VII

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS 

               NECESSARY TO CLOSE THE REPORT 


      The OIG provided a draft of this audit report to the Booker T.
Washington Resource Center (BTWRC) and the Office of Justice Programs
(OJP). The BTWRC's response is incorporated as Appendix V of this final
report, and OJP's response is included as Appendix VI. The following
provides the ~IG's analysis of the responses and summary of actions
necessary to close the report.

Analysis of the BTWRC's Response

      In response to our audit report, the BTWRC concurred with our first
recommendation. For recommendations two through eight, BTWRC officials
stated that they had not seen the records that involved the questioned
costs, and did not receive any of the funding associated with these grants.
We provide the following reply to these statements before discussing OJP
and the BTWRC's specific responses to each of our recommendations, and
the actions necessary to close those recommendations.

        We disclosed in our audit report that limited grant records had been
kept by the former Steering Committee president; however, these records
were incomplete and not organized in a manner that was meaningful to our
work. The significant amount of "unsupported" questioned costs detailed
throughout this report is due to the fact that complete and accurate grant
records were not provided to us. The foundation of our audit was based on
the bank records provided with BTWRC assistance. When the draft report
was issued, we discussed the information provided by the former Steering
Committee president with current BTWRC officials, and notified those
officials of our intent to return the records to the BTWRC.

       In their response to our audit report, BTWRC officials provided details
regarding its claim that the BTWRC was misled by the former Steering
Committee president and by a representative of the United States Attorney's
Office (USAO), Western District of Texas regarding their responsibilities as
Fiscal Agent. We provided a copy of the BTWRC's response to the USAO
representative and the former Steering Committee president for comments
regarding BTWRC's claims. While we did not receive a response from the
former Steering Committee president, the USAO representative provided
comments.




                                      50 

        Specifically, the BTWRC claimed that during a meeting in September
2006, the USAO representative stated that even though the BTWRC's EIN
number was used in the application: (1) the grant did not belong to the
BTWRC, (2) that the BTWRC would not be li able for the grant, and (3) that
the Steering Committee was the Fiscal Agent under the grant. The USAO
representative affirmed that to the best of his recollection he made those
statements because he believed them to be accurate at that time. The
USAO representative cited ongoing confusion within the comm ittee regarding
the entity that would be serving as fiscal agent. The USAO representative
believed the BTWRC allowed the use of its EIN to open a bank account for
the success of the Weed & Seed project. Further, the USAO representative
stated that he did not provide a copy of the grant to the BTWRC when
requested because he did not have access to the Grants Management
System and he believed O]P was in the best position to provide BTWRC
officials with a current vers ion of the grant documents. The USAO
representative stated that he did not intentionally withhold the grant from
BTWRC officials. OJP stated in its response that BTWRC was the grantee of
record and, as the direct recipient of the grant funds, was ultimately
responsible for the administration of the awards.

       The USAO representative also responded to statements in BTWRC's
response not directly related to grant administration. Specifically, the USAO
representative denied BTWRC's claims that he "ostracized" the BTWRC
president and labeled members of the Steering Committee who met with
BTWRC officials in September 2008 as "traitors ." The USAO representative
stated that he was "not happy" that the BTWRC president had obtained the
records directly from the bank and recalled expressing disappointment about
some actions by Steering Committee members because those actions
indicated distrust, splintering , and disruption in the Weed & Seed committee
and project. However, he did not recall singling out specific individuals or
using the term "traitor". The USAO representative further stated that he did
not speak to the BTWRC president after this incident because the BTWRC
officials stopped attending Weed & Seed Steering Committee meetings, and
therefore the USAO had no reason or opportunity for additional
conversation. The USAO representative acknowledged that he had an
interest in the success of the program and "may have responded emotionally
to these incidents." He also stated that due to personality conflicts and deep
disagreements, the Steering Committee was unable to appropriately
implement the proposed strategy due to a lack of collaboration among its
members .

      The BTWRC also stated in its response that it submitted a comp laint to
the DO] OIG Investigations Division reporting concerns. As stated in our
report, the DOJ OIG Investigations Division received that complaint


                                     51
regarding payroll taxes, payroll advances, and travel expenditures and
referred it to OJP in September 2008. During this audit, we identified
certain issues requiring further investigation. We made a referral to the
~IG's Investigations Division, and put our audit on hold pending resolution
of the referral. Subsequently, we were able to complete our audit and issue
this report.

Summary of Actions Necessa ry to Close Report

1. 	   Closed. OJP and the STWRC concurred with our recommendation to
       ensure that the STWRC implement appropriate internal controls and
       procedures to safeguard Department of Justice (DOJ) funds before
       awarding any future funds to the STWRC. OJP stated that it will
       designate the BTWRC as a high risk grantee until such time as the
       BTWRC provides new or revised written procedures that are responsive
       to our recommendation. However, OJP also noted that it determined
       that further action is not required of the BTWRC as the STWRC is no
       longer receiving federal grant funds from DOJ. Therefore,OJP
       requested closure of the recommendation .

       We determined that OJP's response adequately addressed our
       recommendation. Therefore, this recommendation is closed .

2. 	   Resolved. OJP concurred with our recommendation to remedy the
       $169,907 in unsupported payroll costs identified in our audit. In their
       response to the draft report, STWRC officials stated that although they
       had not seen the records involving these costs, and received none of
       the funds expended by the Weed and Seed program, they are willing
       to work with DOJ to explore methods that could be used to resolve this
       issue.

       This recommendation can be closed when we receive evidence that
       OJP has remedied the $169,907 in unsupported payroll costs.

3. 	   Resolved . OJP concurred with our recommendation to remedy the
       $29,794 in unsupported fringe costs identified in our audit. In their
       response to the draft report, STWRC officials outlined the actions taken
       to report concerns regarding unpaid payroll taxes while the grants
       were active . STWRC officials also stated that although they had not
       seen the records involving these costs, and received none of the funds
       expended by the Weed and Seed program, they are willing to work
       with DOJ to explore methods that could be used to resolve this item.

       This recommendation can be closed when we receive evidence that
       OJP has remedied $29,794 in unsupported fringe costs.


                                      52
4. 	   Resolved. OJP concurred w ith our recommendation to remedy the
       $4,592 in unsupported contractor costs identified in our audit. In their
       response to the draft report, BTWRC officials stated that although they
       had not seen the records involving these costs, and received none of
       the funds expended by the Weed and Seed program, they are willing
       to work with DOJ to exp lore methods that could be used to resolve this
       issue.

       This recommendation can be closed when we receive evidence that
       OJP has remedied the $4,592 in unsupported contractor costs.

5. 	   Resolved. OJP concurred with our recommendation to remedy the
       $86,751 in unallowable direct costs identified in our audit. In their
       response to the draft report, BTWRC officials stated that although they
       had not seen the records involving these costs, and received none of
       the funds expended by the Weed and Seed program, they are willing
       to work with DOJ to explore methods that could be used to resolve this
       issue.

       This recommendation can be closed when we receive evidence that
       OJP has remedied the $86,751 in unallowable direct costs.

6. 	   Resolved. OJP concurred with our recommendation to remedy the
       $51,505 in unsupported direct costs identified in our audit. In their
       response to the draft report, BTWRC officials stated that although they
       had not seen the records involving these costs, and received none of
       the funds expended by the Weed and Seed program, they are willing
       to work with DOJ to explore methods that could be used to resolve this
       issue.

       This recommendation can be closed when we receive evidence that
       OJP has remedied the $51,505 in unsupported direct costs.

7. 	   Resolved. OJP concurred with our recommendation to remedy the
       $12,877 in unsupported unidentified costs detailed in our audit report.
       In their response to the draft report, BTWRC officials stated that
       although they had not seen the records involving these costs, and
       received none of the funds expended by the Weed and Seed program,
       they are willing to work with DOJ to explore methods that could be
       used to resolve this issue.

       This recommendation can be closed when we receive evidence that
       OJP has remedied $12,877 in unsupported unidentified costs.



                                      53
8. 	   Resolved. O]P concurred with our recommendation to remedy the
       $63,010 in unsupported costs associated with the match requirement
       for Grant No. 2006-WS-Q6-0204. In their response to the draft
       report, BTWRC officials stated that although they had not seen the
       records involving these costs, and received none of the funds
       expended by the Weed and Seed program, they are willing to work
       with DO] to explore methods that could be used to resolve this issue.

       This recommendation can be closed when we receive evidence that
       O]P has remedied the $63,010 in unsupported costs associated with
       the match requirement for Grant No. 2006-WS-Q6-0204.




                                     54 

